<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2017 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-658, Part 5]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 114-658, Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                             APRIL 12, 2016


         Printed for the use of the Committee on Armed Services
         
         
         

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
2017 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 5  EMERGING THREATS AND 
                              CAPABILITIES
                              




                                                 S. Hrg. 114-658, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                             APRIL 12, 2016

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         
         
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
        
                          _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-921 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
       
        
        
        
        
        
        
        



                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman         JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                BILL NELSON, Florida
JEFF SESSIONS, Alabama                   CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi             JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire              JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                    KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                     RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota                JOE DONNELLY, Indiana
JONI ERNST, Iowa                         MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina              TIM KAINE, Virginia
DAN SULLIVAN, Alaska                     ANGUS S. KING, JR., Maine
MIKE LEE, Utah                           MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                    
                                     
                       Christian D. Brose, Staff Director
                   Elizabeth L. King, Minority Staff Director
             
                                      _____________

           Subcommittee on Emerging Threats and Capabilities

                  JOE WILSON, South Carolina, Chairman
             
JOHN KLINE, Minnesota             JAMES LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania        JIM COOPER, Tennessee
DUNCAN HUNTER, California         JOHN GARAMENDI, California
RICHARD NUGENT, Florida           MARC VEASEY, Texas
RYAN ZINKE, Montana               DONALD NORCROSS, New Jersey
TRENT FRANKS, Arizona             BRAD ASHFORD, Nebraska
DOUG LAMBORN, Colorado            PETE AGUILAR, California
MO BROOKS, Alabama
BRADLEY BYRNE, Alabama
ELISE STEFANIK, New York             
                                     
                             

                                  (ii)


                         C O N T E N T S

                            _________________
                             April 12, 2016

                                                                   Page

The Strategy and Implementation of the Department of Defense's        1
  Technology Offsets Initiative.

Welby, Honorable Stephen P., Assistant Secretary of Defense for       2
  Research and Engineering.
Prabhakar, Arati, Director, Defense Advanced Research Projects       11
  Agency.
Roper, William B., JR., Director, Strategic Capabilities Office..    22

Questions for the Record.........................................    50

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, APRIL 12, 2016

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

    THE STRATEGY AND IMPLEMENTATION OF THE DEPARTMENT OF DEFENSE'S 
                     TECHNOLOGY OFFSETS INITIATIVE

    The subcommittee met, pursuant to notice, at 2:36 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Deb 
Fischer (chairwoman of the subcommittee) presiding.
    Members present: Senators Fischer, Cotton, Tillis, Nelson, 
Manchin, Kaine, and Heinrich.

      OPENING STATEMENT OF SENATOR DEB FISCHER, CHAIRWOMAN

    Senator Fischer. Good afternoon. The Subcommittee on 
Emerging Threats and Capabilities meets today to receive 
testimony on the Department of Defense's third offset strategy.
    In 2014, Under Secretary Kendall provided this subcommittee 
with a classified briefing on U.S. technological superiority. 
In November of that year, then-Secretary of Defense Hagel 
announced the start of what he referred to as, quote, ``a game-
changing third offset strategy,'' end quote.
    Since this announcement, many senior leaders in the 
Department of Defense, including Secretary and Deputy 
Secretary, have spoken at length about our military's eroding 
technological edge and the significance of the third offset 
strategy. However, these discussions tend to broadly focus on 
abstract ideas and the general importance of innovation. The 
purpose of today's hearing is to explore the concrete details 
beneath the notional concepts.
    I look forward to hearing from our witnesses today about 
what activities make up the third offset strategy and the 
extent to which it represents a change from past practice.
    Appearing before the subcommittee today, we have Dr. Roper, 
Director of the Strategic Capabilities Office; Dr. Prabhakar, 
Director of the Defense Advanced Research Projects Agency, or 
DARPA; and Secretary Stephen Welby, the Assistant Secretary of 
Defense for Research and Engineering.
    I'd like to welcome and thank you all for being here today.
    I would turn to my Ranking Member for any opening comments 
he would like to make.

                STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. Madam Chairman, thank you.
    I simply am a big fan of what these folks do. I think we 
need to support the President's request, and then double it.
    [Laughter.]
    Senator Nelson. That's my opening statement.
    Senator Fischer. Thank you, Senator Nelson.
    We will now turn to our witnesses. Your full statements 
will be made part of the record, and I would ask that you 
provide us with some brief opening comments, after which we 
will proceed to 7-minute rounds in our questioning.
    Secretary Welby.

STATEMENT OF HONORABLE STEPHEN P. WELBY, ASSISTANT SECRETARY OF 
              DEFENSE FOR RESEARCH AND ENGINEERING

    Mr. Welby. Chairman Fischer, Ranking Member Nelson, members 
of the committee, Senator Heinrich, thank you. I'm pleased to 
have the opportunity to provide testimony on the technological 
underpinnings of the Department of Defense's third offset 
strategy. I join my colleagues from DARPA and the Strategic 
Capabilities Office in doing so.
    In my role as Assistant Secretary of Defense for Research 
and Engineering, I serve as the Chief Technology Officer for 
the Department of Defense, and I'm responsible for the 
Department's strategies and supporting plans to develop and 
leverage technology needed to support continued U.S. 
technological superiority.
    For the last 30 years, the U.S. and our allies have had--
been able to count on a set of unique capabilities in combat 
that no regional adversary could bring to bear. We're now at a 
pivotal moment in history, where the advanced technical 
capability and capacity that the Nation has relied upon on the 
battlefield is now being challenged by military technology 
investments being made by increasingly capable and assertive 
powers. As Secretary Carter said during his budget rollout 
testimony, Russia and China are our most stressing competitors. 
They have developed and continue to advance military systems 
that threaten our advantages in specific areas. In some cases, 
they're developing new weapons and ways of war that seek to 
achieve their objectives rapidly before they hope we can 
respond.
    Our Nation has long pursued strategies that leverage U.S. 
technological advantage as a force multiplier. We need to 
continue to leverage those advances in technology and in new 
operational concepts to provide sustained advantage to U.S. 
forces, shifting the landscape of future national security 
competition to our advantage by seeking asymmetric 
opportunities in technological and operational innovation.
    Merriam-Webster defines an ``offset'' as something that 
serves to counterbalance or compensate for something else. An 
offset strategy is an approach to military competition that 
seeks to provide an asymmetric advantage to the United States 
rather than competing head-to-head or tank-for-tank or plane-
for-plane in an area where a potential adversary may also 
possess potential strength. Instead, an offset strategy seeks 
to shift the axis of competition through the introduction of 
new operational concepts and technologies towards one in which 
the U.S. has a significant and sustainable advantage.
    The U.S. was successful in pursuing two distinct offset 
strategies during the Cold War:
    The first of these offset strategies occurred in the 1950s, 
when President Eisenhower sought to overcome the Warsaw Pact's 
numerical advantage by leveraging U.S. nuclear superiority to 
introduce battlefield nuclear weapons, which shifted the axis 
of competition from competing on conventional force numbers to 
competing in an area where the U.S. had an advantage.
    A second offset strategy occurred in the 1980s, with the 
recognition that the Soviet Union had achieved nuclear power--
the United States. The second offset strategy sought to create 
an enduring advantage by pursuing a brand new approach to joint 
operations, leveraging the combined effects of near-zero-miss 
distance weapons, realtime targeting, and joint battle networks 
to create a new era of conventional precision engagement.
    This combined suite of technologies gave the U.S. a 
fundamental advantage that we have sustained for the last 30 
years, capabilities that provided the U.S. and its allies with 
an asymmetrical advantage in every fight. Today, we see the 
emergence of increasing technological symmetry, and that's why 
the Department is discussing the need for a new offset 
strategy.
    Today, the third offset strategy is not a document that you 
can go find in a drawer somewhere in the Pentagon. Instead, 
it--the term really describes the broad nature of capabilities 
that the Department expects to realize over the coming years by 
pursuing developments in advanced technologies, by conducting 
experimentation with prototype systems, through increased 
emphasis on war-gaming to help us understand new concepts, and 
by emphasizing the need to innovate across the entire DOD 
enterprise.
    In the fiscal 2017 defense budget request, Secretary Carter 
identified more than $3.6 billion of investment in fiscal year-
2017 and 18 billion in specific investment over the Future Year 
Defense Plan, focused on spurring research, development, and 
procurement of advanced capabilities that our military will 
need to fight and win in high-end conflicts in the future. 
These investments and others directly support and enable a 
third offset strategy.
    The investments in the fiscal 2017 defense budget request 
include new capabilities that can be fielded rapidly through 
modifying and upgrading existing systems--and we'll be happy to 
talk about some of those here today; material concepts that 
could enter accelerated development; and, again, something I'd 
like to talk about, our technology-driven concepts that could 
have a significant impact on the joint force over a longer 
term. They--the investments also emphasized the critical 
importance of focusing on the cost of weapon systems so that--
to be able to introduce these kind of disruptive capabilities 
into the joint force at real scale.
    Deputy Secretary of Defense Work has emphasized, in his 
remarks, the importance of advanced software-enabled 
capabilities for a third offset. Emerging capabilities in 
advanced algorithms and software intelligence offer a 
significant potential advantage to a joint force, enabling 
systems to process large quantities of data at a high speed to 
identify emergent patterns and trends, speeding decision making 
and enabling faster-than-human reaction time in new and 
emerging areas of conflicts, such as cyber and electronic 
warfare, and supporting new models of manned-unmanned combat 
teaming; and finally, permitting new weapons concepts that can 
operate in critically challenging cyber and electronic warfare-
constrained environments.
    The Department's goal to sustain and advance our Nation's 
technological superiority for the 21st century national 
security environment requires a sound research-and-development 
investment strategy. The DOD's research and engineering 
community works to create options for the Department and serves 
as a novel and agile innovation engine for the Department. The 
core science and technology efforts of ASDR&E, the service 
laboratories of DARPA and SCO are focused on creating long-
range opportunities for the Department's future material 
options.
    As DOD develops the third offset strategy, the Department's 
research and engineering enterprise is well prepared to 
develop, shape, and create technology options to inform future 
operational concepts. Our goal must always be to ensure that 
our soldiers, sailors, airmen, and marines always have the 
scientific knowledge, the decisive technology, the advanced 
systems and tools, and the materiel edge to succeed when called 
upon. Our research and engineering enterprise measures its 
success in the security of the Nation and the success of our 
warfighters.
    Let me close by thanking the committee for its strong 
interest in and support of the Department's research and 
engineering efforts as we work to discover, design, and deliver 
the technology capabilities our warfighters will need in the 
future.
    Thank you.
    [The prepared statement of Mr. Welby follows:]

                Prepared Statement by Mr. Stephen Welby
                              introduction
    Chairman Fischer, Ranking Member Nelson, and Members of the 
Subcommittee, I am pleased to have the opportunity to provide testimony 
on the Department of Defense's Third Offset Strategy and to join my 
colleagues from Defense Advanced Research Projects Agency (DARPA) and 
Strategic Capabilities Office (SCO). In my role as the Assistant 
Secretary of Defense for Research and Engineering (ASD(R&E)), the Chief 
Technology Officer of the Department of Defense, I am responsible for 
the Department's strategies and supporting plans to develop and 
leverage the technologies needed to ensure continued US technological 
superiority.
    We are at a pivotal moment in history where the advanced technical 
capability and capacity that the Nation has relied upon to provide us 
with unmatched technological superiority on the battlefield (including 
capabilities in precision weapons, long-range ISR, space systems and 
stealth) are now being challenged by the military technology 
investments being made by increasingly capable and assertive powers. 
Other nations are increasing their investments in advanced 
capabilities, including anti-access/area-denial capabilities, which are 
intended to counter US technological strengths and deter the US from 
projecting power abroad to defend our national interests, maintaining 
international norms, and supporting our allies and partners.
    Our nation has long pursued strategies that leveraged US 
technological advantage as a force multiplier. We continue to leverage 
advances in technology and new operational concepts to provide 
sustained advantage to US forces--shifting the landscape of future 
national security competition to our advantage by seeking asymmetric 
opportunities in technological and operational innovation.
                         a focus on the future
    As the Department looks to the future, significant global 
challenges are on the horizon that will require renewed emphasis on 
sustaining US technological superiority. For the last 30 years the US 
and our allies have been able to count on a set of unique capabilities 
in combat that no regional adversary could bring to bear: long range 
precision weapons, airborne ISR for real time targeting, network 
centric integration of command and control, low observable systems, and 
integrated use of space assets. These technological capabilities 
enabled a US strategy of power projection--leveraging a limited forward 
presence with the ability to respond to provocation with follow-on 
forces that could be moved to theater and deployed with confidence in 
an opposed environment. Today, we are seeing a return to a more 
competitive environment--one where regional actors have studied US 
strengths and are capable of making the investments required to develop 
advanced systems designed to directly counter US technological 
strengths in a power projection environment. This evolution in our 
competitive technological posture will require the DOD to invest in the 
technological and operational innovations required to sustain our 
decisive conventional overmatch against regional adversaries.
    As Secretary Carter has said, ``Russia and China are our most 
stressing competitors. They have developed and are continuing to 
advance military systems that seek to threaten our advantages in 
specific areas. In some case, they are developing weapons and ways of 
wars that seek to achieve their objectives rapidly, before they hope, 
we can respond.'' \1\ Given our constrained budget resources, we must 
pursue a technological strategy to ensure our conventional deterrence 
remains as strong in the future as it is today. Accomplishing this goal 
is one of the most important strategic tasks facing the Department.
---------------------------------------------------------------------------
    \1\ Remarks by Secretary Carter on the Budget at the Economic Club 
of Washington, DC, February 2, 2016
---------------------------------------------------------------------------
    As it has been in the past, technological and operational 
innovation will be the key to future strategy. Maintaining and 
extending our competitive, technological, and operational advantages is 
not a purely quantitative contest with other nations. Rather, the US 
must seek asymmetric advantages--particularly those that take advantage 
of US strengths in military and commercial technological innovation. We 
must accelerate our approaches to identifying promising technological 
differentiators, our processes for mapping technological capability to 
operational advantage, and our methods of moving new capabilities from 
laboratory to field.
    Future capabilities will be increasingly joint in nature; 
leveraging the ability to synchronize simultaneous operations in the 
space, air, sea, undersea, ground, and cyber domains. Emerging tools 
based on breakthroughs in computer science, advanced electronics, novel 
communications and sensors, and human-machine interfaces will enable 
new operational concepts that will enable faster and better decision 
making, coordinated operations at range and across the battlespace by 
manned, unmanned, and cyber operations.
                     toward a third offset strategy
    Merriam-Webster defines an Offset as ``something that serves to 
counterbalance or to compensate for something else.'' \2\ An offset 
strategy is an approach to military competition that seeks to 
asymmetrically compensate for a disadvantaged position. Rather than 
competing head to head in an area where a potential adversary may also 
possess significant strength, an offset strategy seeks to shift the 
axis of competition, through the introduction of new operational 
concepts and technologies, toward one in which the US has a significant 
and sustainable advantage. A successful offset strategy devalues an 
adversary's current advantages and imposes costs to react to US efforts 
and help establish a long-term competitive advantage for US forces.
---------------------------------------------------------------------------
    \2\ http://www.merriam-webster.com/dictionary/offset
---------------------------------------------------------------------------
    The US was successful in pursuing two distinct offset strategies 
during the Cold War. These strategies enabled the US to ``offset'' the 
Soviet Union's numerical advantage in conventional forces without 
pursuing the enormous investments in forward deployed forces that would 
have been required to provide overmatch soldier for soldier and tank 
for tank. These offset strategies relied on fundamental innovation in 
technology, operational approaches, and organizational structure to 
compensate for Soviet advantage in time, space, and force size.
    The first of these offset strategies occurred in the 1950's, when 
President Eisenhower sought to overcome Warsaw Pact's numerical 
advantage by leveraging US nuclear superiority to introduce battlefield 
nuclear weapons--thus shifting the axis of competition from 
conventional force numbers to an arena where the US possessed an 
asymmetrical advantage. This approach provided stability and offered 
the foundation for deterrence.
    The second of these offset strategies arose in the late 1970's and 
1980's with the recognition that the Soviet Union had achieved nuclear 
parity. The Second Offset Strategy, informed by studies such as the 
1973 Long Range Research and Development Planning Program, sought to 
create an enduring advantage by pursuing a new approach to joint 
operations--leveraging the combined effects of conventional precision 
weapons, real-time long-range ISR sensor capabilities capable of 
supporting real time precision targeting, and the joint battle networks 
that permitted these capabilities to be synchronized and executed over 
the full breadth of the battlespace. These integrated systems-of-
systems provided a significant force multiplier by improving the 
efficiency and effectiveness of conventional strike systems, creating 
opportunities for synergistic effects across warfighting domains, and 
permitting US forces to more effectively and rapidly project 
conventional power globally with reduced forward presence. These 
conventional targeting and strike capabilities built on US advantages 
in weapons technology, sensor technology, aviation systems, software 
and computer architecture, and space-based capabilities (particularly 
space based communications and the global positioning system) to 
provide the ability to service targets with unprecedented accuracy. 
This combined suite of technologies reflected unique US technical 
capabilities at the time--capabilities that provided the US and its 
allies with an asymmetric advantage over Soviet forces.
    It is important to note that neither of these two original offset 
strategies was solely about technological advantage. In each case, it 
was the right combination of technology-enabled operational and 
organizational innovation that provided decisive strategic and 
operational advantage and therefore bolstered conventional deterrence.
    The capabilities of the Second Offset Strategy provided the US with 
decisive conventional overmatch against regional adversaries. As a 
result, the asymmetric advantage provided by these capabilities has 
been a central feature of the US doctrine for over three decades.
                           what has changed?
    At the time of the introduction of the Second Offset Strategy in 
the early 1980's, the US was the only nation with the knowledge and 
capacity to develop, deploy, and successfully execute the intelligence, 
surveillance and reconnaissance capabilities, the space-based systems, 
and the precision weapons that supported this approach. Today, 
competitors such as Russia and
    China (and countries to which these nations proliferate advanced 
capabilities) are pursuing and deploying advanced weapons and 
capabilities that demonstrate many of the same technological strengths 
that provide the technological basis for US advantage. This growing 
symmetry between US technical capabilities and near-peer potential 
competitors is particularly seen in the capabilities demonstrated 
during Russian power-projection operations in Syria.
    There has been significant public discussion about anti-access/area 
denial (A2/AD) capabilities. These advanced capabilities include anti-
air and anti-surface sensors and weapons systems designed to make it 
more difficult for the US to project power and operate at extended 
range. Potential adversaries have had over two decades to study the 
tools and operational concepts that underpin the US technology-enabled 
conventional strategy and have learned from our operational successes. 
With the globalization of technology and technological talent and with 
growing resources being applied to military modernization, potential 
competitors are seeking similar technological capabilities to those the 
US has deployed, and are optimizing them to blunt US advantage. The 
emergence of A2/AD capabilities, which leverage similar precision 
guidance and seeker/sensor technologies to those that underpinned the 
Second Offset Strategy, again demonstrate the recent emergence of 
increased symmetry in military technical capabilities. Potential 
competitors are beginning to catch up, potentially eroding the margin 
of conventional advantage enjoyed by US forces since the end of the 
Cold War.
                     toward a third offset strategy
    The emergence of increasing symmetry in national security 
environment suggests that it is again time to begin considering the mix 
of technologies, system concepts, military organizations, and 
operational concepts that might shift the nature of the competition to 
US advantage. Such a set of capabilities would provide the basis for a 
Third Offset Strategy. As was true of previous offset strategies, a 
Third Offset Strategy would seek, in a budget constrained environment, 
to maintain and extend US competitive technological and operational 
advantage by identifying asymmetric advantages that are enabled by 
unique US strengths and capabilities. A Third Offset Strategy would 
ensure that our conventional deterrence posture remains as strong in 
the future as it is today and would establish the conditions to extend 
that advantage into the future.
    Today, the Third Offset Strategy is not a formal document that lays 
out a single course for future capabilities. Instead the term describes 
the broad nature of capabilities the Department expects to realize over 
the coming years by pursuing developments in advanced technologies by 
conducting experimentation with prototype systems to inform future 
options, through an increased emphasis on war gaming to help understand 
how new concepts can provide enduring advantage, and by emphasizing the 
need to innovate across the entire DOD enterprise, and through an 
emphasis on delivering new and enhanced capability to the warfighter in 
the coming years.
    The Department anticipates that that the capabilities delivered 
through a Third Offset Strategy will:

    <bullet>  Enable the Joint Force to fight and deliver effects from 
a distributed posture at extended ranges
    <bullet>  Enable the Joint Force to leverage range, precision and 
speed to seize and maintain the initiative
    <bullet>  Enable the Joint Force to leverage dispersal and new 
forms of operational sanctuary to increase survivability
    <bullet>  Enable the Joint Force to achieve mass in the form of 
ensembles of many low-cost, collaborating ``effectors''
    <bullet>  Enable the Joint Force to develop new forms of 
distributed maneuver and close combat techniques that combine kinetic, 
electronic warfare and cyber-enabled operations
    <bullet>  Enable the Joint force to operate battle networks much 
less vulnerable to cyber and electronic attack

    Under a Third Offset Strategy, a combination of these capabilities, 
combined with the continued maturation of current US capabilities and 
strengths, will extend and enable US capability to project power and 
deliver dominant overmatch if called upon--rendering ineffective 
potential adversary investments in A2/AD capabilities and advanced 
weapons systems. These envisioned third offset capabilities will 
provide the underpinnings for future conventional deterrence and will 
provide the basis for support to US partners and Allies into the 
future.
    Deputy Secretary of Defense Work has emphasized the importance of 
advanced software-enabled capabilities to any Third Offset Strategy. 
\3\ Emerging capabilities in artificial intelligence and autonomy offer 
significant advantage to the Joint Force--enabling the future force to 
develop and operate advanced joint, collaborative human-machine battle 
networks that synchronize simultaneous operations in space, air, sea, 
undersea, ground, and cyber domains. Artificial intelligence will allow 
new levels of autonomy--the limited delegation of decision-making 
authority--within joint battle networks, leading to entirely new 
opportunities for human-machine collaboration and combat teaming.

    \3\ Deputy Secretary Work's interview with David Ignatius at 
``Securing Tomorrow'' forum at the Washington Post Conference Center in 
Washington, DC, March 30, 2016
---------------------------------------------------------------------------
    With the goal of achieving future operational advantage, the 
Department is pursuing developments in five distinct areas enabled by 
recent developments in advanced algorithms and software intelligence:

    <bullet>  Autonomous Learning Systems--systems capable of 
processing large data sets to identify emergent patterns and models in 
near real time and/or that have the delegated authority to recommend or 
make decisions based on analysis of these data sets, especially in 
applications that require faster than human reaction times (e.g., cyber 
defense, electronic warfare, missile defense, and active vehicle 
protection systems
    <bullet>  Human-Machine Collaboration--new capabilities that team 
human decision makers with software-enabled support systems to exploit 
the advantages of both for better and faster decisions
    <bullet>  Assisted Human Operations--using software enabled systems 
to enhance human perform in combat (e.g., wearable electronics and 
combat ``apps'')
    <bullet>  Manned-Unmanned Combat Teaming--advanced system-of-
systems that employ innovative cooperative activities between manned 
and unmanned systems to provide new operational capabilities
    <bullet>  Cyber and Electronic Warfare (EW) Hardened and Networked-
Enabled Semi-Autonomous Weapons--weapon systems that can locally 
communicate and coordinate their behavior for improved effectiveness in 
communications denied environments

    Recent advances in advanced algorithms and software intelligence 
are expected to have significant impact in education, health care, and 
many commercial sectors in the coming decade. We anticipate US 
leadership in these areas to offer potential benefit in national 
security capabilities as well. We anticipate these emerging 
capabilities to ultimately support specific Service and Joint combat 
tasks and manifest themselves uniquely in domain-specific ways in 
support of new operational and organizational constructs.
    As the Department develops a Third Offset Strategy, it is critical 
to prepare for a future security environment of continuous 
technological competition--one that will require sustained emphasis on 
the US maintaining its ability to out-innovate our competitors. This 
focus on innovation will require the Department to be open to all 
potential sources of technical advantage--leveraging our traditional 
industrial base, academia, and non-traditional suppliers to achieve 
competitive advantage. Speed of delivery from concept to fielding will 
be critical in this environment and will likely create a demand for new 
flexible architectures, more agile capability delivery models, and 
improved mechanisms for incremental capability and technology 
insertion. These factors will create a significant demand for a highly 
skilled defense science and technology workforce with an increased 
emphasis on ensuring the Department can attract and retain highly 
sought after talent.
   fiscal year 2017 investment in third offset strategy capabilities
    In testimony \4\ supporting the Fiscal Year 2017 Defense Budget 
Request, Secretary Carter identified more than $3.6 billion of 
investment in fiscal year 2017 and $18 billion in investment across the 
Future Year Defense Plan (FYDP) to help spur research, development, 
test and evaluation, and procurement of advanced capabilities our 
military will need to deter and if necessary fight and win high-end 
conflicts in the future. These investments directly support the 
objectives of a Third Offset Strategy.
---------------------------------------------------------------------------
    \4\ Secretary of Defense's written statement before the Senate 
Armed Services Committee on March 17, 2016
---------------------------------------------------------------------------
    While relatively modest compared to the Department's overall 
program, these investments will enable the development of leading-edge, 
asymmetric capabilities and help spur development of operational 
concepts to counter advanced adversaries. This approach is similar to 
the development and implementation of the Second Offset Strategy in the 
early 1980's--the initial Second Offset Strategy investments were a 
fraction of DOD's budget, but they ultimately led to the development of 
the joint guided munitions capabilities that have been used in every 
American conflict since Desert Storm.
    The investments in the fiscal year 2017 Defense Budget Request 
include new capabilities that can be fielded rapidly through modifying 
and upgrading existing systems, material concepts that could 
immediately enter accelerated development, and technology-driven 
concepts that could have a significant impact on the Joint Force's 
conventional capabilities over the longer term. They also emphasize the 
critical importance of focusing on cost so that we will be able to 
introduce disruptive capabilities into the Joint Force at scale.
    Many of the capabilities being developed to support a Third Offset 
Strategy remain classified, and therefore it is only possible to break 
down the $18 billion dollar investment publicly in six broad 
categories:

    <bullet>  First, to address the dual challenges of getting into 
theater (or the anti-access challenge) and operating under guided 
munitions threat (or the area-denial problem), the Department proposes 
investing more than $3 billion over the FYDP in weapons and concepts 
for surface-strike and air-to-air combat to negate competitor 
investments in these areas. These include upgrades to a number of 
existing weapons and enhancements to on-going efforts to develop new 
weapons.
    <bullet>  Second, to insure our ability to prevail in future guided 
munitions salvo competition, the Department proposes investing nearly 
$500 million over the FYDP for improvements in cost-effective 
approaches to defend, disperse, and protect key operational 
capabilities and operational locations.
    <bullet>  Third, the Department proposes investing more than $3 
billion over the FYDP to ensure we will continue to have the most 
lethal submarine and undersea force in the world. These investments 
will leverage new payloads, better sensors, and new undersea systems to 
enhance deterrence and ensure we continue to own this domain.
    <bullet>  Fourth, the Department proposes nearly $3 billion over 
the FYDP to advance the development of human-machine teaming, 
collaborative decision making, and efforts to disaggregate complex 
systems into many, lower-cost systems operating together to enable 
cooperative ensemble operations. When demonstrated, these capabilities 
will create radically new options for delivering combat power from 
disaggregated systems and will create significant operational and 
strategic dilemmas for potential adversaries.
    <bullet>  Fifth, we are investing more than $1.7 billion over the 
FYDP in cyber and EW capabilities including advances in cognitive 
systems that can sense, learn, and react automatically, and generate 
effective countermeasures against new or unknown threats in real time, 
ensuring our ability to operate within the cyber and EW domains while 
denying them to the adversary.
    <bullet>  Sixth, we are investing more than $500 million over the 
FYDP to expand war gaming, test new operational concepts, tactics, 
techniques and procedures, and fund demonstrations of advanced 
capabilities. A major focus will be exploring new operational concepts 
and capabilities for ground combat.

    These summary investments include only the scope of programs that 
are supporting prototyping, experimentation, and operational 
demonstration and do not include the significant investments being made 
across the Department's Research and Engineering enterprise. Within the 
Service laboratories and DARPA, critical supporting technologies are 
being developed that will extend and enhance our ability to address 
future military challenges, shift the cost curve to improve 
affordability, or anticipate and create technological surprise. These 
core S&T investments maintain and extend the underlying foundational 
technical advantage on which current and future system innovations are 
based.
          the role of the research and engineering enterprise
    The Department's goal to sustain and advance our Nation's 
technological superiority for the 21st Century's national security 
environment requires sound research and development investments. The 
enhanced use of prototyping, demonstration, and experimentation will 
help the Department to more rapidly mature and assess the impact these 
technologies can have on our future force. Our investments focus on 
protecting essential US advantages in design, development, and 
manufacturing capabilities that would be very difficult to reconstitute 
if lost. These investments deliver the knowledge and tools necessary to 
preserve our advantage in a future global environment and provide the 
Department with the ability to make a strategic choice in the future to 
shape the nature of military competition.
    The DOD Research and Engineering community works to create options 
for how the Department will meet our Nation's future national security 
needs and serve as an agile innovation engine for the Department. We 
must continue to focus on speeding the development and application of 
technology to meet acquisition program needs and must leverage ideas 
from inside and outside the Department; adapting and shaping them to 
solve military problems.
    The ASD(R&E) serves as the Chief Technology Officer of the 
Department and provides oversight, guidance and direction to Service 
and Defense Agency science and technology investments. Through the 
Reliance 21 process, we coordinate the efforts of the Services to 
maximize return on investment and avoid unnecessary duplication of 
effort. Research and Development areas coordinated through the Reliance 
21 process include efforts in Counter-Improvised Explosive Devices; 
Counter-Weapons of Mass Destruction; Biomedical; Command Control 
Communications; Computers and Intelligence; Human Systems; 
Cybersecurity; Autonomy; Engineered Resilient Systems; Electronic 
Warfare; Sensors; Air Platforms; Ground and Sea Platforms; Weapons 
Technologies; Space; Advanced Electronics; Energy and Power Technology; 
and Materials and Manufacturing Processes. Core work in each of these 
areas offers potential to impact and influence thinking relevant to a 
Third Offset Strategy, and the Department continues to mature and 
update roadmaps for critical technology maturation across the Services 
in each of these areas.
    The core science and technology efforts of ASD(R&E) and the service 
laboratories are principally focused on creating and enabling long-
range opportunities for the Department's future materiel options. While 
these organizations also support the current fight and provide near-
term support to ongoing operations, acquisitions, upgrades and support 
programs, their principal focus is on the mid- and long-range needs of 
the Department--creating the supporting technology and concepts to 
shape the Department's future.
    In 2015, DOD conducted a classified ASD(R&E)-led long range 
research and development planning program (LRRDPP) to identify critical 
technologies and future system concepts that the Department should 
consider to inform material options for the future force. This study 
engaged experts from across the Department to identify novel system 
concepts and emerging technical capabilities that could have 
significant impact on DOD's posture relative to emerging near-peer 
competitors in the 2030 timeframe. This long-range study reviewed 
hundreds of inputs received from the commercial, not-for-profit, and 
academic sectors through a broad public request for information. The 
LRRDPP study also reviewed ongoing R&D efforts across Service 
laboratories, DARPA, and Department of Energy labs. The study delivered 
detailed recommendations for acceleration and shaping of new and 
existing DOD investments with the goal of providing technology options 
for demonstration in the 2020 timeframe. The Department's Fiscal Year 
2017 Budget Request was informed by the LRRDPP study and other 
associated analytical efforts. The LRRDPP study was an effective means 
of injecting potentially technologically enabled disruptive concepts 
into the Department's budget deliberations--both to challenge current 
thinking and to provide long-range options for accelerated technology 
maturation for cutting-edge, asymmetric capabilities with the potential 
to enable new operational concepts.
    DARPA similarly has an eye toward shaping the nation's future 
technology and technical options, but the DARPA portfolio is 
differentiated from the Service S&T portfolios by a distinctive focus 
on high-risk, high-payoff opportunities. Because DARPA's core mission 
is to make pivotal early investments in breakthrough technologies for 
national security, the Agency is always looking beyond the challenges 
of the moment to anticipate and create options for the future. The 
interaction between Service S&T community and DARPA is robust--with 
direct Service participation in DARPA programs and Service transition 
of DARPA-led efforts into the operational fleet. Through these 
interactions, the unique innovative culture of DARPA serves to catalyze 
and accelerate advanced capability adoption within the Services.
    SCO was created in 2012 by Dr. Carter during his tenure as Deputy 
Secretary of Defense. SCO reports directly to the Deputy Secretary of 
Defense and is engaged in identifying and prototyping near-term 
solutions to counter the threat of near-peer competitors. SCO executes 
this mission by engaging directly with the COCOMS and Service leaders 
to identify opportunities to re-purpose, modify, or enhance existing 
Service capabilities to perform new missions. SCO efforts often cross 
service boundaries and mission areas--rethinking how tools procured by 
a Service for one mission might be repurposed and extended to provide 
alternatives and options in a fundamentally different mission area--
often within a different Service. SCO's focus on demonstrating ``good 
enough'' and ``sometimes game-changing in the near-term'' solutions 
provide options to fill critical gaps and offer a rapid response to 
emerging threats--creating ``breathing room'' in which the Service S&T 
community and DARPA initiatives can deliver more fundamental, long-term 
solutions to provide sustained advantage.
    As the Department pursues technology enablers for a Third Offset 
Strategy, each of these groups plays an important role. SCO is 
principally focused on the near-term--prototyping capabilities that, if 
successful, could be procured and implemented within the time horizon 
covered by the current President's budget submission. DARPA and the 
Department's core S&T enterprise are focused on concepts and enablers 
that, if successful, will have more fundamental shaping influence in 
the mid- to long-term. DARPA's portfolio consists of a selected set of 
fundamentally disruptive technology options, while the Services' S&T 
portfolios cover the full space of sustaining and emerging military 
relevant technologies.
                               conclusion
    As DOD develops a Third Offset Strategy, the Department's Research 
and Engineering enterprise is well prepared to develop, shape, and 
create technology options to inform future operational concepts. The 
core mission of the Research and Engineering community is to study 
emerging threat capabilities, develop, shape, and evaluate emerging 
technological opportunities and to think creatively about alternative 
future capabilities. At each of our laboratories, engineering centers, 
and test facilities our best and brightest researchers come to work 
each day thinking about how to ensure that our military preserves its 
technological edge well into the future.
    Our goal must always be to ensure that our soldiers, sailors, 
airman, and marines always have the scientific knowledge, the right 
technology, the advanced systems and tools, the decisive technology, 
and the material edge to succeed when called upon. Our Research and 
Engineering enterprise measures its success in the security of our 
Nation and the success of our warfighters.
    The fiscal year 2017 President's Budget request will enable us to 
drive a culture of technical innovation across the Department, will 
help us prepare for an increasingly competitive global National 
Security environment, and will foster a whole-of-department coordinated 
effort across Army, Navy, Air Force, DARPA, and other DOD research and 
engineering organizations.
    Let me close by thanking the committee for its strong interest in 
and support of the Department's research and engineering efforts as we 
work to discover, design, and deliver the technological capabilities 
our warfighters will need to shape the future.

    Senator Fischer. Thank you very much.
    Dr. Prabhakar, please.

   STATEMENT OF ARATI PRABHAKAR, DIRECTOR, DEFENSE ADVANCED 
                    RESEARCH PROJECTS AGENCY

    Dr. Prabhakar. Thank you. Chairwoman Fischer and Senator 
Nelson, members of the subcommittee, it's a great pleasure to 
be here with my colleagues today.
    DARPA [The Defense Advanced Research Projects Agency] is 
part of the Defense Department, and we also work with defense 
companies and commercial companies, with universities and labs 
of all sorts, so we are very much part of a very large 
ecosystem. Within that ecosystem, DARPA has one particular 
mission, and that is to make the pivotal early investments in 
breakthrough technologies for national security. We do this 
work to change what's possible so that the Department can 
revolutionize our military capabilities.
    Now, today's hearing is about the third offset strategy, 
and I want to just spend a little bit of time to tell you what 
it means for DARPA.
    You know, DARPA's work is always--has always focused ono 
technologies to offset our adversaries' capabilities, so the 
third offset strategy hasn't significantly changed the way we 
start our programs, which range from radically new military 
systems to artificial intelligence to biological technologies. 
What is starting to shift, I think, in a very productive way is 
the kind of pull that we're getting from the Department to 
transition those technologies. I'll contrast what's going on 
today to the environment we were in 5 or 10 years ago. If you 
look in that period of time, most of DARPA's significant 
transition successes were direct to theater. We were tracking 
insurgents' pickup trucks from the air. We were helping to 
analyze data so that we could help commanders in the field 
understand the effectiveness of stability operations. We're 
very proud of the contributions that we were able to make in 
that environment. But, in that period of--and in a really 
intense focus, of course, on the ground war on 
counterinsurgency--in that period of time, we found that there 
was a very limited appetite in the Department to move ahead 
with the kinds of technologies that are going to be necessary 
to deter and defeat a very sophisticated nation-state 
adversary. That's what I think has really shifted today.
    Today, when you look at what's happening across the 
Department, fresh thinking in many ways across the Department, 
including, of course, the third offset strategy. What that 
means today for DARPA is that many more of our transitions are 
working directly with the services in partnerships where we're 
exploring and experimenting and demonstrating what our 
technologies can do to counter, again, a very sophisticated 
adversary, a very capable opponent.
    Just to give you one simple example, last week we had the 
great pleasure of christening a new ship. It's called the Sea 
Hunter. This ship will be the first--the world's first ship 
that's able to leave the pier to navigate thousands of miles 
across open seas without a single sailor onboard. What that 
means is that it'll be able to do some maritime missions for a 
tiny fraction of today's operating costs, which is good, but, 
even beyond that, this is the kind of new capability--this kind 
of unmanned ship now allows us to invent whole new ways to 
exercise influence across the vastness of the oceans. That's 
exactly what we're now doing with the Navy, a series of 
experiments that we're launching on--launching into with them. 
That's a partnership that I deeply value in this particular 
project with the Navy. It's a partnership I don't take for 
granted, however, because, when we started that program, 
originally called the Active Program, many years ago now at 
DARPA, starting in the early part of this decade, at that time 
we were going it alone, for a couple of reasons. Obviously, 
because, at that time, the technology was very new and 
unproven, but also partly because the Navy's priority at that 
time, as was the whole Department's--their focus was on the 
battle at hand.
    Today, very much in contrast to that, the Sea Hunter 
Project is actually only one of a growing set of partnerships 
that we have, transition relationships that we're building with 
the services. Those cover every kind of operational domain. I 
mentioned maritime, but also work in the air, space, and ground 
domains, also work to control the electromagnetic spectrum in 
cyber, and in the information domain. At DARPA, we see these 
partnerships as absolutely essential if we're going to get 
these DARPA technologies from wild new idea to robust 
operational capability.
    Let me just conclude this afternoon by touching on two 
pillars of your support that make it possible for DARPA to do 
this work:
    One is, of course, the budget. Your support in--of the 
budget over the last few years has been vital in the relative 
stability that we've enjoyed. I'll ask you again for your full 
support of the President's budget request.
    The second is people. I want to give a special thanks to 
this committee for, first, creating and then many--over many 
years, supporting a special hiring authority, the 1101 hiring 
authority. This is one of the big reasons that DARPA is able to 
move fast and to hire exceptional people.
    Those are the two elements: great people and the trust that 
you place in us. This is why DARPA is able to create 
breakthrough technologies for national security.
    Thank you. I'll look forward to your questions.
    [The prepared statement of Dr. Prabhakar follows:]

                 Prepared Statement by Arati Prabhakar
    Chairman Fischer, Ranking Member Nelson and Members of the 
Subcommittee, thank you for the opportunity to testify before you 
today. I am Arati Prabhakar, Director of the Defense Advanced Research 
Projects Agency, better known as DARPA. It is a pleasure to be here 
with my colleagues from the Department of Defense (DOD) research and 
development community to discuss DARPA's investments in breakthrough 
technologies for national security and in particular our contributions 
to the Department's Third Offset Strategy.
    For nearly six decades, DARPA has played a particular role in this 
community of government innovators, and in the larger U.S. technology 
ecosystem: to pursue extremely challenging but potentially paradigm-
shifting technologies in support of national security. Today I will 
focus my remarks on DARPA's role in the development of technologies to 
offset the advanced threats that our military and our Nation will face 
in the years ahead, and on the next generation of advanced military 
capabilities to deter and if necessary defeat highly sophisticated 
adversaries.
                            a changing world
    Our senior military and civilian leaders face a world of 
kaleidoscopic uncertainty today and into any foreseeable future. The 
daily fare includes a noxious stew of violent extremism, terrorism, and 
cross-border criminal activity. At the same time, the actions and 
intentions of nation states in every region are increasingly demanding 
DOD's focus and attention. Arsenals in some of these nations have grown 
substantially in the past decade, and recent provocative actions by 
nations around the world have made clear that their capabilities have 
grown as well. Moreover, several U.S. peer adversaries today boast 
first-rate scientists, engineers, laboratories and industries, raising 
the stakes for future capabilities considerably. Our challenge at DARPA 
and for DOD is to maintain a significant advantage for military and 
national security purposes against this competitive and shifting 
backdrop.
    To achieve this advantage, the Department has embarked on an 
important shift in recent years to reenergize its ability to invent, 
experiment with and operationalize advanced military capabilities that 
will be critical to deter and if necessary defeat the emerging great 
powers of this century. DOD's Third Offset Strategy and its Long Range 
Research and Development Plan (LRRDP) embody this important shift.
    Technological capabilities are only one dimension in these 
strategies. This is where DARPA makes it contribution. Because DARPA's 
core mission is to make pivotal early investments in breakthrough 
technologies for national security, the Agency is always looking beyond 
the challenges of the moment to anticipate and create options for the 
future. As a consequence, DARPA plays two roles in the Department's 
Third Offset Strategy and the LLRDP. The first role is the obvious one: 
developing and demonstrating critical core technologies for these new 
strategies through the execution of a wide portfolio of DARPA programs. 
A second role that DARPA plays is sharing its expertise and 
perspectives on future technologies to inform how these Departmental 
strategies are shaped.
    These two roles are reflected in twin principles that guide our 
thinking at DARPA. One principle is that in the years ahead, the most 
powerful defense systems will come from the tight integration of 
leading-edge commercial technologies and highly specialized military 
technologies. You will see this approach in many of our programs, from 
tablets with added encryption for close air support to state-of-the-art 
digital electronics with added DOD-unique radio chips for leapfrog 
radio frequency (RF) systems. The second key principle is that future 
U.S. military success will lie in building systems that are designed to 
evolve, grow and adapt.
    This second principle is critical in light of a significant 
difference between the Third Offset and previous offsets. While 
previous offsets had as their goal bursts of accelerated technological 
progress to provide comfortable, multi-decadal leads over our 
adversaries, it is unlikely the United States will again enjoy such 
monopolies on advanced technologies. Unlike the decades following the 
Second World War, global connectedness and the democratization of 
sophisticated scientific and engineering skills and capabilities make 
the maintenance of such steep technological gradients all but 
impossible today. That means that rather than striving for a temporary, 
static advantage for a period of years, the Third Offset must deliver 
immediate advantages with built-in evolutionary capacities and a 
portfolio of more fundamental, enabling technologies that can support a 
long-term succession of iterative advances and assurance of ongoing 
momentum and pace. In short, we must design not just a new point of 
capability, but new curves of expanding capability over time.
    In similar fashion, my testimony today will focus on two 
collections of DARPA research programs relevant to the Department's 
Third Offset Strategy. The first collection includes examples of 
efforts that are focused on the development of next-generation 
technologies to counter next-generation adversaries. The second 
collection includes examples of efforts that are more fundamental in 
nature and are laying the foundation for advances even further in the 
future. Within each of these two categories, I have organized our 
efforts into three groups, representing three degrees of technological 
maturity: technologies already being piloted or used (``Adoption and 
Impact''), those currently in development (``Technical Progress'') and 
those that are inspiring new investments but that have hallmarks of 
longer-term, outsized potential (``New Opportunities'').
                      darpa's investment portfolio
Next-generation Technologies to Counter Next-generation Adversaries
    DARPA aggressively pursues technologies with the potential to 
expand DOD's range of tactical and strategic options and impose 
technological surprise on our adversaries. Our work spans every 
traditional domain of conflict, including maritime, ground, air and 
space, as well as the cyber and biological domains. It embraces not 
only traditional military hardware but also core mission systems such 
as communications, radar, electronic warfare, and position, navigation 
and timing systems. At DARPA, a crosscutting theme across all of these 
areas is the need to escape from reliance on today's highly capable but 
monolithic and expensive platforms in favor of a more diversified array 
of platform architectures that are smaller and heterogeneous and thus 
harder to target, less expensive and more easily upgraded, and can 
ultimately produce more powerful effects than any single platform by 
itself. DARPA's challenge is to imagine, design and develop the 
separate but networked components of this new paradigm and demonstrate 
the power of complex but seamless systems of systems.
                          adoption and impact
Communications Under Extreme RF Spectrum Conditions (CommEx)
    DARPA's CommEx program is developing technologies that can 
characterize the jamming environment and then actively suppress enemy 
jamming, so aircraft can still communicate with each other in a highly 
contested RF environment. Initial components of CommEx technology are 
part of a planned upgrade to the widely used Link 16 air-to-air data 
network.
Cognitive Electronic Warfare (EW)
    DARPA's Advanced RF Countermeasures (ARC) and Behavioral Learning 
for Adaptive Electronic Warfare (BLADE) programs are investing in the 
technologies needed to rapidly react to dynamic electromagnetic 
spectrum signals from adversary radar and communications systems. These 
programs are applying machine learning--computer algorithms that can 
learn from and make predictions from data--to react in real time and 
jam signals, including new signals that have not yet been cataloged. 
DARPA is working with the Services to transition technologies derived 
from the field of cognitive electronic warfare into the F-18, F-35, 
Army Multi-Function EW program, and Next Generation Jammer.
Power Efficiency Revolution for Embedded Computing Technologies 
        (PERFECT)
    DARPA's PERFECT program is developing revolutionary approaches to 
improving the energy efficiency of DOD computational systems, an 
improvement that will embed significantly increased computing 
capabilities including modern learning algorithms on power-limited 
platforms such as UAVs. Resulting technologies are transitioning to 
both commercial and government users, with the National Reconnaissance 
Office adopting them for new, radiation-hardened circuit architectures 
that enable extremely high data-throughput next-generation space 
systems. A consortium of companies including Google, HP and Oracle, is 
pursuing power-efficient open-source hardware, such as RISC-V open-
source cores developed in part with PERFECT funding.
Long Range Anti-Ship Missile (LRASM)
    DARPA and the Office of Naval Research (ONR) collaborated to 
develop the Long Range Anti-Ship Missile (LRASM), an advanced anti-ship 
missile capable of operating at extended ranges with reduced dependency 
on intelligence, surveillance and reconnaissance (ISR). The 
collaboration began as a technology demonstration effort in early 2009. 
The first two flight tests were conducted in the fall of 2013, during 
which all demonstration objectives were met. To ensure speedy and 
seamless development and deployment of this new capability, DARPA 
created and at first led a LRASM Deployment Office (LDO) with the Navy 
and Air Force, as LRASM transitioned to a Navy Program of Record. A 
third flight test, conducted in February 2015, further assessed 
technical maturity. This past December the Navy took over the LDO 
directorship, marking the successful transition of a model 
collaborative effort to address a pressing strategic need.
Research on Fresh Approaches for Computer Security
    DARPA's Clean-slate design of Resilient, Adaptive, Secure Hosts 
(CRASH) program was a basic research effort that designed new computer 
systems that are highly resistant to cyber attack. The technology 
development has recently concluded, and CRASH-developed software is now 
being incorporated in the commercial and military arenas. One 
university performer started a company based on CRASH research; this 
led to an announcement from HP in September 2015 that its new line of 
printers would feature this software to enhance their security. DARPA 
is coordinating transitions to the Navy and the Defense Information 
Systems Agency (DISA). For example, the aforementioned software is now 
being transitioned to the Naval Surface Warfare Center to protect 
shipboard control systems from cyber attack, and other CRASH software 
is being transitioned to offer similar protection for DOD command and 
control servers. Additionally, the Department of Homeland Security and 
the Air Force Research Laboratory have been working together to test 
and evaluate CRASH technology in multiple devices. Because the cyber-
attack surface is vast and diverse, each of these transitions makes a 
contribution to the Nation's cybersecurity by taking a class of threats 
off the table.
Active Authentication
    Passwords are cumbersome and imperfect authentication systems for 
use on information systems, and most systems have no way of verifying 
that the user who was originally authenticated is the user still in 
control of the keyboard. DARPA's Active Authentication program is 
addressing this problem by developing novel ways of validating 
identity--ways that focus on unique aspects of the individual through 
the use of software-based biometrics, including behavioral traits such 
as subtleties in keystroke style or screen-swipe patterns. Although 
these biometrics may never completely replace passwords, they can 
provide an added layer of assurance of a user's identity--and DARPA-
developed systems have begun to make their way into commercial 
products, where they are already in use by millions of users. One 
version, for example, has been incorporated into Google's new Android 
behavioral authentication system announced last June; others are being 
piloted by several banks in the United States and Europe, where they 
have helped secure more than 1.5 million transactions; and yet others 
are being explored by the National Institute of Standards and 
Technology for possible use within the National Strategy for Trusted 
Identities in Cyberspace (NSTIC).
                           technical progress
Unmanned Surface Vessel for Long-Duration Missions
    The Anti-Submarine Warfare (ASW) Continuous Trail Unmanned Vessel 
(ACTUV) program has designed, developed and constructed an entirely new 
class of ocean-going vessel--one able to traverse the open seas for 
months and over thousands of kilometers without a single crew member 
aboard. The 130-foot ship is designed to robustly track quiet diesel 
electric submarines. But of broader technical significance, it embodies 
breakthroughs in autonomous navigational capabilities with the 
potential to change the nature of U.S. maritime operations. 
Specifically, ACTUV is endowed with advanced software and hardware that 
enables full compliance with maritime laws and conventions for safe 
navigation--including international regulations for preventing 
collisions at sea, or COLREGS--while operating at a fraction of the 
cost of manned vessels that are today deployed for similar missions. 
ACTUV was recently transferred to water at its construction site in 
Portland, Ore. It is scheduled to be christened on April 7, with open-
water testing to begin this summer off the California coast.
XS-1
    The objective of the Experimental Spaceplane XS-1 program is to 
demonstrate the technology needed to fabricate and fly a reusable 
aircraft to the edge of space--and be able to do so 10 times in 10 
days, to demonstrate ``aircraft-like'' operability, cost efficiency and 
reliability. Success would radically alter the current space-access 
equation in which launches must be arranged years in advance. That 
bottleneck not only adds to the cost of placing national security 
payloads on orbit but also forces an increase in the complexity of the 
payloads themselves. In an era of declining budgets and proliferating 
foreign threats to U.S. air and space assets, routine, affordable and 
responsive access to space is essential to enabling new military space 
capabilities and rapid reconstitution of space systems during crisis. 
Specific goals of XS-1 include an ability to deploy a small expendable 
upper stage to launch a 3,000-pound spacecraft to low-Earth orbit at a 
cost of $5M, ten times less than today's launch systems.
System of Systems for Air Superiority
    In recent years, DARPA has started a collection of programs that 
aims to develop and demonstrate technologies that together can 
dramatically advance air combat capabilities against sophisticated 
adversaries by coordinated deployment of distributed assets with 
diverse capabilities rather than reliance on densely consolidated 
capabilities on large, expensive and unwieldy platforms. Key to these 
efforts is the approach of integrating new capabilities with existing 
systems to achieve cost leverage against near-peer adversaries and to 
continuously progress faster and at lower cost than traditional 
monolithic platform-based approaches.
    DARPA's System of Systems (SoS) Integration Technology and 
Experimentation (SoSITE) program is developing novel architectures--
combinations of different types of aircraft, weapons, sensors and 
mission systems--that distribute air warfare capabilities across a 
large number of interoperable manned and unmanned platforms. In the 
last year, we developed an analytical capability to compare the mission 
performance and cost leverage of alternative architectures and found 
several promising approaches to achieving air dominance in highly 
contested environments. The technical and operational risks associated 
with these approaches are being analyzed this year to provide the basis 
for our flight experimentation program in the next phase of the 
program.
    The Distributed Battle Management (DBM) program is one key 
component of the Agency's system-of-systems vision. Current battle 
management systems offer only limited automated aids to help 
warfighters comprehend and adapt to dynamic situations. Adding more 
elements to the SoS architecture--more unmanned aircraft, missiles and 
mission systems--will exacerbate the battle management challenge, as 
will the degraded communications of a highly contested environment. The 
DBM program seeks to develop appropriately automated decision aids to 
assist airborne battle managers and pilots manage air-to-air and air-
to-ground combat. In the initial phase of the program, we developed 
algorithms to disseminate hostile track data using limited 
communications across tactical data links. These algorithms achieved 
high accuracy while requiring less communications capacity then 
standard approaches. We also developed algorithms for automatic control 
of UAVs in conducting air-to-air and air-to-surface engagements. In the 
next phase of the program, these algorithms will be integrated with 
appropriate human-computer interfaces. The resulting capability will be 
evaluated by pilots and operators in a virtual simulation environment.
High-Assurance Cyber Military Systems (HACMS)
    Embedded processors are the ubiquitous computational brains in DOD 
systems, but along with their valuable capabilities comes an ever-
growing attack surface for cyber malfeasance. DARPA's HACMS program is 
developing tools and methods for the design and construction of high-
assurance cyber-physical systems--scaling the mathematics of formal 
methods to create devices effectively ``unhackable'' for specified 
properties. DARPA has applied these techniques initially to a Little 
Bird helicopter, using a HACMS microkernel to give the mission computer 
a cyber retrofit. In a flight test, a red team was unable to attack the 
helicopter's controls, despite the fact that the team was given access 
to the platform and its software, including its source code.
Cyber Grand Challenge (CGC)
    It typically takes months or years for a software bug to be 
identified and patched--a period of time increasingly being taken 
advantage of by digital miscreants, and a vulnerability window not 
likely to shrink as long as the process for identifying and repairing 
such flaws remains mostly manual and artisanal as it is today. CGC is a 
DARPA-sponsored competition that aims to accelerate the development of 
automatic defensive systems capable of reasoning about flaws, 
formulating patches and deploying them on a network in real time. By 
acting at machine speed and scale, these technologies may someday 
overturn today's attacker-dominated status quo. Seven teams from across 
the United States qualified last year to compete in the CGC final 
event, which will take place August 4, 2016, live on stage, co-located 
with the DEF CON 24 conference in Las Vegas.
Mining and Understanding Software Enclaves (MUSE)
    DARPA's MUSE program seeks a radical rethinking of the way we 
conceive and maintain software, by integrating foundational ideas from 
formal methods and machine learning to an ever-growing corpus of open-
source software. The techniques being developed under MUSE are intended 
to discover deep semantic properties from the programs found in its 
corpus. These properties drive two distinct analytic tasks. The first 
enables automatic identification and repair of software bugs by 
recognizing anomalous structure based on properties found in similar 
previously analyzed programs; the second synthesizes new software 
behavior from existing corpus elements based on formal specifications. 
To date, DARPA has assembled a software corpus of more than 20 
terabytes and has successfully applied its technologies to 
automatically synthesize a provably correct implementation of 
sophisticated cryptographic protocols such as Advanced Encryption 
Standard (AES), and repair well-known security vulnerabilities such as 
Heartbleed.
                           new opportunities
Maritime System of Systems
    DARPA has made important technical progress towards future air 
dominance through the development of a systems-of-systems approach. 
Now, through its Cross Domain Maritime Surveillance and Targeting 
(CDMaST) program, DARPA is extending this model into the maritime 
domain. The program will be developing technologies to disaggregate 
various functions across multiple lower cost, upgradable and in many 
cases unmanned platforms on the sea surface and underwater. By 
distributing the functions of position, navigation and timing; 
communications; command and control; and networking and logistics 
across large expanses, this architecture will force the adversary to 
defend a very wide area at high cost, inverting the cost curve for 
securing the maritime environment.
Leading-edge Electronics with Built-in Trust
    Under the hood of every military system are the electronic 
components that are its brains, eyes and ears, but DOD has struggled 
for decades with contradictory demands in designing, sourcing and 
maintaining these vital components. Military systems need the most 
capable integrated circuit (IC) technology to do their phenomenally 
difficult computational or signal-processing tasks with the limited 
power available on a missile or aircraft. Yet designing custom ICs 
continues to grow more complex, and fewer teams are able to commit the 
time and money for custom design, even in the commercial world. At the 
same time, security is essential for military applications but 
semiconductor production has globalized, with diminishing U.S.-owned, 
U.S.-sited production capacity at the leading edge of technology, and 
supply chains now crossing multiple national borders. While IC 
technology progresses at a pace set by the commercial sector, DOD needs 
access to components for decades. To address this group of challenges, 
DARPA is building a cluster of programs aimed at creating new options 
for DOD.
    DARPA's Trusted Integrated Circuits (TRUST) program is developing 
technologies that will ensure the trustworthiness of ICs used in 
military systems, even when those components have been designed and 
fabricated under untrusted conditions. TRUST makes a radical departure 
from conventional verification approaches, using advanced metrics to 
identify with increasing efficiency ICs that have been maliciously 
attacked while reducing the incidence of declaring good circuits to be 
bad.
    The Supply Chain Hardware Integrity of Electronics Defense (SHIELD) 
program aims to eliminate counterfeit ICs from the electronics supply 
chain by inserting into the packaging of these components minuscule 
``dielets''--chips tinier than a grain of salt, with embedded 
encryption, sensors, near-field power and communications capabilities--
to detect any attempt to tamper with the relevant electronics. Dielets 
are being designed to incorporate passive, unpowered sensors capable of 
capturing attempts to image, de-solder, de-lid or image the IC; 
mechanical processes that make the dielet fragile and prevent intact 
removal from its package; and a full encryption engine and advanced 
near-field technology to power the dielet and provide communications, 
to make counterfeiting too complex and time-consuming to be cost 
effective.
    DARPA's Integrity and Reliability of Integrated Circuits (IRIS) 
program is developing techniques to provide system developers the 
ability to derive the function of digital, analog and mixed-signal ICs 
non-destructively, given limited operational specifications. These 
techniques include advanced imaging and device recognition of deep-sub-
micron circuits, as well as computational methods to determine device 
connectivity. The program is also working to better understand circuit 
aging systems and to produce innovative methods of device modeling and 
analytic processes to determine the reliability of integrated circuits 
by testing a limited number of samples. Resulting technologies will 
help ensure that DOD microelectronics reliably perform as expected and 
only as expected by revealing potential compromises due to 
manufacturing defects, counterfeiting or the addition of malicious 
components.
    The Circuit Realization at Faster Timescales (CRAFT) program seeks 
to develop new fast-track circuit-design methods, multiple sources for 
IC fabrication and a technology repository that will facilitate reuse 
of proven solutions. To achieve its goals, CRAFT seeks to shorten the 
design cycle for custom integrated circuits by a factor of 10 (on the 
order of months rather than years); devise design frameworks that can 
be readily recast when next-generation fabrication plants come on line; 
and create a repository so that methods, documentation and intellectual 
property need not be reinvented with each design and fabrication cycle.
Cybersecurity for the Grid
    Embraced by two vast oceans and sharing borders with only two 
nations--both of them allies--the United States has long enjoyed a 
degree of insular security. But our critical infrastructure's growing 
dependence upon cyber systems inherently accessible even from long 
distances means that the prospect of attacks against the homeland must 
now be taken very seriously. Indeed, with cost pressures having driven 
the integration of conventional information technologies into the 
nation's dispersed industrial control systems, today'sgrid is 
increasingly vulnerable to cyber attack, either through direct 
connection to the Internet or via interfaces to utility information 
technology systems. DARPA's recently launched Rapid Attack Detection, 
Isolation and Characterization Systems (RADICS) was created to develop 
automated systems that would help cyber and utilities engineers restore 
power within seven days of an attack that overwhelms the recovery 
capabilities of power providers. RADICS's goals include the development 
of advanced anomaly-detection systems with high sensitivity and low 
false-positive rates, based on analyses of the power grid's dynamics; 
the development of systems that can localize and characterize malicious 
software that has gained access to critical utility systems; and the 
design of a secure emergency network that could connect power suppliers 
in the critical period after an attack.
Foundational Technologies to Support Long-term, Successive Advances
    In addition to pursuing the kinds of game-changing technologies 
described above, DARPA has the responsibility for investigating 
research areas that are so new and unformed as to exist more as 
inklings than disciplines. This is the part of our portfolio that 
anticipates and prepares for varieties of threats that are still poorly 
understood but have the potential to wreak entirely new kinds of 
havoc--including the fast-evolving field of biology, which has outsized 
potential for strategic surprise but has not traditionally been at the 
core of the Nation's national security framework. It is in this part of 
DARPA's portfolio that the seeds of future offsets are being discovered 
and cultivated. While the outcomes of these efforts are inherently less 
predictable than those of other programs, these efforts also have the 
most dramatic long-term potential to generate truly revolutionary 
capabilities that can counter categories of risk hardly imaginable 
today.
                          adoption and impact
Additive Manufacturing for Performance Applications
    Despite its revolutionary promise, additive manufacturing is still 
in its infancy when it comes to understanding the impact of subtle 
differences in manufacturing methods on the properties and capabilities 
of resulting materials. Those uncertainties have slowed the reliable 
mass production of additively manufactured structures with demanding 
specification requirements, such as structural components for aircraft 
and other military systems. To overcome this problem, DARPA's Open 
Manufacturing (OM) program is building and demonstrating rapid 
qualification technologies that comprehensively capture, analyze and 
control variability in the manufacturing process to predict the 
properties of resulting products. Success could help unleash the 
potential time- and cost-saving benefits of advanced manufacturing 
methods for a broad range of defense and national security needs.
    DARPA's OM framework and data schema are already being used by the 
Navy in their efforts to produce flight-critical metallic components 
with an additive-manufacturing-certified Technical Data Package, with 
plans to field a set of flight-critical metallic components for the V-
22, H-1, and CH-53K platforms by 2017. Manufacturing pedigree 
considerations, such as a baseline set of standards and schema for 
additive manufacturing data collection, are being provided by the OM 
Manufacturing Demonstration facilities at Penn State and the Army 
Research Laboratory. In another application, advanced manufacturing 
approaches for bonded composites could enable aircraft wings and 
fuselages, for example, to be built and joined together without the 
thousands of rivets and fasteners currently required, significantly 
reducing manufacturing costs and time and lowering operating costs by 
making aircraft lighter.
Accurate, Specific Disease Diagnostics on the Spot
    The challenge of tracking the spread of infectious disease is 
exacerbated by the fact that the only way to know precisely which 
pathogen ails a patient is to draw blood, send it to a lab, and often 
wait days to hear the result. The Mobile Analysis Platform (MAP) point-
of-care diagnostic device is a simple, rugged, handheld, battery-
operated instrument that rapidly identifies a range of infectious 
diseases. Developed under DARPA's Prophecy program, it enables low-cost 
and robust molecular diagnostics within 30-45 minutes in areas where 
neither a laboratory nor a secure cold chain is available. Because the 
device provides instant wireless transmission of test results and 
location data, it can provide invaluable real-time epidemiological data 
during outbreaks of fast-moving diseases such as Ebola. DARPA is 
already engaged in clinical testing of the device with the Naval Health 
Research Center and the U.S. Military HIV Research Program, and will 
conduct testing with the Marine Corps Warfighting Laboratory this year 
during military exercises in the United States and West Africa. In 
addition, DARPA recently initiated development of a MAP assay for Zika 
virus.
Biologists, Start Your Startups!
    For many of the technologies driven by DARPA's Biological 
Technologies Office, the path to impact runs through commercialization. 
Several recent examples point to early progress in this regard.
    DARPA's Autonomous Diagnostics to Enable Prevention and 
Therapeutics (ADEPT) program is creating a new technology base to 
outpace the spread of natural or engineered diseases and toxins through 
the development of rapid diagnostics, novel vaccines, new methods for 
drug delivery and entirely new approaches to providing populations with 
antibody-derived immunity. Among other technology and business 
successes resulting from ADEPT are a DARPA-enabled spin-off that has 
since received more than $25 million in venture funding for further 
development of a novel diagnostic platform and another small biotech 
company for which DARPA provided the initial research funding that went 
on to receive venture funding to continue development of tissue-
integrated biocompatible sensors.
    DARPA's Microphysiological Systems (MPS) program--better known as 
the Agency's foray into ``organs-on-a-chip'' technology--is developing 
a platform that uses engineered human tissue to mimic human 
physiological systems as a means of testing the safety and 
effectiveness of candidate drugs, vaccines or other biomedical 
countermeasures. In one of many applications, two DARPA performers are 
collaborating to understand the liver toxicity that can be caused by 
biological therapeutics--a common reason why otherwise promising drug 
candidates fail in clinical trials. Among the program's business 
successes are a start-up microfluidics company spun off from the 
research that DARPA had funded, which has since gone on to raise more 
than $10 million in venture funding.
                           technical progress
Harnessing Extreme Physics
    Through a number of ambitious basic science programs, DARPA is 
pushing the limits of the physical sciences, opening new possibilities 
for ultra-precise measurements and unprecedented control over 
fundamental phenomena. Among them:
    The science of quantum communications--in which single photons from 
entangled photon pairs are transmitted over a distance--offers the 
possibility of unconditionally secure communication because the act of 
measuring a quantum object necessarily changes it. For quantum 
communications to be practical, however, several technological barriers 
must be overcome. DARPA created the Quiness program to investigate 
novel technologies capable of high-rate, long-distance quantum 
communications. Recent demonstrations through Quiness of technologies 
to capture, manipulate and re-transmit photons without in effect 
measuring them are truly significant. This is because theorists in 
Quiness were able to prove from fundamental quantum principles that 
such ``quantum repeater'' technologies are the only way to achieve 
quantum communications over trans-continental distances.
    Many defense-critical applications--the Global Positioning System 
(GPS) and the Internet, for example--demand exceptionally precise time 
and frequency standards. Today's systems, however, rely on 1950s atomic 
physics technologies. Recent advances in optical atomic systems give 
promise to a new generation of optical atomic clocks and quantum 
metrology that stands to transform numerous DOD applications. The 
Quantum-Assisted Sensing and Readout (QuASAR) program is developing new 
quantum control and readout techniques to provide a suite of 
measurement tools that will be broadly applicable across disciplines, 
with likely applications relating to biological imaging, inertial 
navigation and robust global positioning systems. Recently the program 
demonstrated the world's most accurate clock with a total uncertainty 
of 2 parts in 1018, or about 10,000 times better than GPS clocks. This 
means that if the clock began ticking at the Big Bang nearly 14 billion 
years ago it would be accurate to better than one second today. Clocks 
of this caliber could lead to improved positioning and navigation, and 
enable novel imaging and geological sensing techniques.
    DARPA's Ultrafast Laser Science and Engineering (PULSE) program is 
developing the technological means for engineering improved spectral 
sources, such as ultra-fast optical lasers--advances that in turn could 
facilitate more efficient and agile use of the entire electromagnetic 
spectrum and generate improvements in existing capabilities such as 
geolocation, navigation, communication, coherent imaging and radar, and 
perhaps give rise to entirely new spectrum-dependent capabilities. 
Recent PULSE demonstrations include synchronization of clocks with 
femtosecond precision across kilometers of turbulent atmosphere, 
corresponding to a 1,000-fold improvement over what is possible using 
conventional radio-frequency techniques.
                           new opportunities
Changing the Security-Privacy Trade-off
    DARPA's Brandeis program will explore technologies that could help 
break the tension between maintaining privacy and being able to tap 
into the huge value of data. Rather than having to trade off between 
these important goals, Brandeis aims to build a third option, enabling 
safe and predictable sharing of data while reliably preserving privacy. 
Assured data privacy could help open the doors to a number of security-
relevant goals, from collections of publicly available data that can 
help predict military movements or emergency situations to early 
evidence of cyber attacks on shared networks--applications that in some 
environments could be difficult to fully implement without assurances 
of privacy.
Communicating with Computers
    A new and powerful wave of artificial intelligence (AI) is sweeping 
commercial and military applications today. Based on recent major 
advances in machine learning--research that was sponsored in part by 
DARPA--this generation of AI is fueling fields as disparate as search, 
self-driving cars and financial trading in the commercial world and 
battle management, electronic warfare, cybersecurity and information 
operations in the national security realm. I have touched on some of 
these examples in my testimony today.
    Despite this significant technical progress, however, the ways in 
which we humans interact with machine systems are still quite limited 
compared to human-to-human interactions. DARPA's Communicating with 
Computers (CwC) program is a basic research effort to explore how to 
facilitate faster, more seamless and intuitive communication between 
people and computers--including how computers endowed with visual or 
other sensory systems might learn to take better advantage of the 
myriad ways in which humans use contextual knowledge (gestures and 
facial expressions or other syntactical clues, for example) to enrich 
communication. Ultimately, advances from this program could allow 
warfighters, analysts, logistics personnel and others in the national 
security community to take fuller advantage of the enormous 
opportunities for human-machine collaboration that are emerging today.
All the Light We Cannot See
    Light that enters the eye or the lens of a camera carries much more 
information than is typically retrieved by viewers, including numerous 
details about where it has been and what it has experienced. DARPA's 
Revolutionary Enhancement of Visibility by Exploiting Active Light-
fields (REVEAL) program seeks to unlock information in photons that 
current imaging systems discard. The program is first developing a 
comprehensive theoretical framework to enable maximum information 
extraction from complex scenes by using all the photon pathways of 
captured light and leveraging light's multiple degrees of freedom. This 
framework will then be used to guide the development of new imaging 
hardware and software technologies. Those technologies will be tested 
against a challenge problem that calls for full 3D scene reconstruction 
from a single viewpoint--a rendering that today requires inputs from 
multiple viewpoints. Such an ability could enhance situational 
awareness for troops, potentially allowing them to reconstruct, from a 
single vantage point, a complex scene including objects or people not 
visible by line-of-sight viewing.
Designing Complex, Dynamic Systems
    DARPA's Complex Adaptive System Composition and Design Environment 
(CASCADE) program has a seemingly esoteric but ultimately practical 
goal: to advance and exploit novel mathematical techniques to gain a 
deeper understanding of system component interactions, a unified view 
of system behaviors and a formal language for composing and designing 
complex adaptive systems. Conventional modeling and design tools invoke 
static `playbook' concepts that do not adequately represent the 
complexity of, say, an airborne system of systems with its constantly 
changing variables, such as enemy jamming, bad weather or loss of one 
or more aircraft. CASCADE aims to fundamentally change how systems are 
designed to enable real-time resilient response within dynamic, 
unexpected environments.
                         keeping darpa vigorous
    The programs described above are a sampling of what engages DARPA 
every day, but of course DARPA is much more than a collection of 
programs. It is a team of about 200 extraordinary government employees 
whose collective energy not only propels the Agency but also 
invigorates scientists, engineers, mathematicians and others across the 
wide community with which we work--defense companies large and small, 
commercial startups and major firms, universities, government agencies 
and labs, and our close partners across DOD. It is a team that revels 
in the opportunity to attack pressing, nearly intractable problems--all 
in the context of public service.
    DARPA's leadership takes seriously its responsibility to encourage 
the Agency's culture of high-risk, high-reward innovation and its 
ability to execute rapidly and effectively. Toward that end, we 
continue to experiment with better ways to reach new performers 
through, for example, the ``EZ BAA'' process launched by our Biological 
Technologies Office last year, which greatly simplifies the process by 
which performers can get on contract with DARPA for efforts of up to 
$750,000. The EZ BAA is especially helpful in reaching those unfamiliar 
with defense procurement.
    We also continue to use our prize authorities, for which we are 
grateful. Prize authorities were crucial to the success of the DARPA 
Robotics Challenge, our three-year push to accelerate progress in 
ground robotics for humanitarian assistance and disaster relief, which 
held its finals in California last summer. We are also using our prize 
authorities to run DARPA's Cyber Grand Challenge, which has been 
working to speed the development of automated cyber defense 
capabilities and will hold its final competition in August, when seven 
extremely talented teams will have their computers face off against one 
another at an event that is expected to draw thousands of spectators. 
In addition, we continue to use the prize mechanism for smaller 
efforts, such as last year's competition to model the spread of 
Chikungunya, a mosquito-borne infectious disease.
    Of course, at the center of DARPA's success is an abiding 
commitment to identify, recruit and support excellent program 
managers--extraordinary individuals who are at the top of their fields 
and who are hungry for the opportunity to push the limits of their 
disciplines during their limited terms at DARPA. I am most grateful for 
the critical support this Subcommittee provided in authorizing the 1101 
hiring mechanism, extending it, and in fiscal year 2015 expanding 
DARPA's ability to use it. That authority has proven invaluable to our 
ability to attract some of the finest scientists, engineers and 
mathematicians to the important work of public service and national 
security. The 1101 experiment has now been running since 1999 and has 
clearly proven its benefits to DARPA and the Nation. After 16 years of 
annual uncertainty about its ongoing availability, we would appreciate 
your support to make this authority permanent.
                             darpa's budget
    The President's fiscal year 2017 budget request for DARPA is $2.973 
billion. This amount is the same as that requested for fiscal year 2016 
and $105 million more than the $2.868 billion appropriated for fiscal 
year 2016. To put these numbers in context, from fiscal year 2009 to 
fiscal year 2013 DARPA's budget eroded significantly through a series 
of reductions, including the 8 percent across-the-board sequestration 
cut in fiscal year 2013. The total reduction to DARPA's budget from 
fiscal year 2009 to fiscal year 2013 was 20 percent in real terms. With 
modest increases in fiscal year 2014 and 2015 and a slight decrease for 
fiscal year 2016, DARPA's budget has not fully recovered, but it has 
been more stable. I ask for your full support of the President's budget 
request for fiscal year 2017 so that DARPA can continue to deliver on 
its vital mission.
                               conclusion
    As the programs I have highlighted today illustrate, DARPA's 
commitment to bolstering national security encompasses an extraordinary 
range of technologies and scientific domains, spanning dimensional 
scales from the atomic to the celestial, time scales from attoseconds 
to decades, spectral scales from radio waves to infrared to gamma rays, 
andbiological scales from genes and proteins to neurons and organs to 
infectious diseases and global health. Every day, the people of DARPA 
come to work to probe and push on those various frontiers. Despite the 
daunting security challenges around the globe that spur our work, the 
atmosphere within our agency is persistently one of excitement and even 
joy--a reflection of the fact that DARPA is obsessed not with problems 
but with solutions.
    A highly functional, effective and spirited organization does not 
happen by accident. We within DARPA work at it constantly, drawing our 
inspiration from the amazing, ever-evolving world of technology and 
from a deep desire to serve our Nation. I and my colleagues at DARPA 
appreciate the ongoing support and trust this committee and 
subcommittee have bestowed upon DARPA. I am fully committed to ensuring 
that, just as past investments in DARPA helped secure our Nation by 
repeatedly bending the arc of technological history, so today's 
investments will give rise to capabilities that will protect our Nation 
and project our interests for many decades to come.
    With that, I will be pleased to respond to your questions.

    Senator Fischer. Thank you.
    Dr. Roper.

    STATEMENT OF WILLIAM B. ROPER, JR., DIRECTOR, STRATEGIC 
                      CAPABILITIES OFFICE

    Dr. Roper. Chairman Fischer, Ranking Member Nelson, and 
members of the committee, thank you for your interest in the 
third offset. Thank you for your interest in the Department's 
return to great-power competition. Thank you for your interest 
in the Strategic Capabilities Office, or SCO. It's an honor to 
be here with colleagues from the research-and-development arm 
of the Department who are striving to maintain our technology 
edge against a world of threats.
    As mentioned earlier, these threats now span a space from 
nonstate terrorism all the way up through great-power 
competition. The third offset is really trying to return a 
greater focus of our Department's effort, including the budget, 
to those highly sophisticated adversaries. In 2012, the SCO was 
created by Secretary Carter as one piece of this broader 
strategy; specifically, a near-term piece that is focused on 
trying to regain advantage. I would like to discuss the way 
that we frame immediate challenges, our process for prototyping 
solutions, and how we're working to do these prototypes in a 
partnership with the services. This will be the focus of my 
remarks today.
    Though daunting in many respects, we interpret our 
immediate challenges via a fairly simple analogy, but an 
instructive one, that the U.S. military is akin to a football 
team that has run a very successful playbook, but for a bit too 
long. As in football, where opponents watch film to try to find 
weaknesses to exploit them, 20 years of operations in the 
Middle East have given great powers a lot of valuable game film 
to roll right into their weapons development. SCO's response to 
this is to do what football teams do. Great teams often find 
themselves overanalyzed and exploited, but they don't throw 
away their playbooks. They use this vulnerability and turn it 
into opportunity by creating trick plays. They start running in 
their pass formations, passing in their run formations. They 
reimagine their strengths rather than playing to their 
opponents. Like fashion, we can rejuvenate our military 
playbook if we can reimagine its strengths: ships, aircraft, 
submarines, things we're familiar with. If we start using them 
in unforeseen and unexpected ways, we can hope to buy back some 
of the competitive edge that we're losing to great powers. SCO 
was created to do precisely this.
    Though our strategy often has advantages of lower cost and 
rapidity, its core tenet, which is our need to change, is 
anchored in our greatest advantage of all: experienced 
operators who can do the unparalleled with today's systems and 
can rapidly master any unconventional tactic we throw at them. 
This strategy also will provide healthy connective tissue 
between our past and future efforts; the past, by keeping 
taxpayer investments for as viable--viable for as long as 
possible; and the future, by trying to buy time for these 
future technologies, future systems, the leap-aheads, to field. 
Because of this, we were tapped to be a near-term component of 
the broader offset strategy, and our goal is a simple one: to 
try to enhance our current deterrence, backed by an arsenal of 
surprises, using systems that we have today.
    Our process for achieving this is, itself, innovative, 
because it flows in reverse from the normal one, from 
operational needs to systems--actually, from systems to 
operational needs, rather than vice versa. Living within the 
constraints of existing hardware and software focuses ideas 
early on. It encourages cost domain thinking, and necessitates 
close partnerships with the services to pull off these high-
risk prototypes. In 3 and a half years of practice, we've done 
23 capabilities, working with the services. Six of them will 
transition by the end of this year. None have failed to 
transition, thus far.
    These projects, which are really our versions of trick 
plays, take on one of three forms: repurposing a system for a 
new mission it wasn't designed to do; integrating systems into 
a team that can perform the function together, but not 
separately; and including or incorporating enabling commercial 
technology. I'm sure we'll cover some examples today, but let 
me highlight three of them:
    Unconventional weapons. Standard Missile 6 was originally 
designed to defend our ships. We've partnered with the Navy to 
give it an offensive antiship role. You can also do 
unconventional defense. Army howitzers, Navy projectiles, Air 
Force radars weren't designed to be a defensive system, but 
we're partnering to Frankenstein these into a low-cost 
supersonic missile defense shield.
    Could also do unconventional teams, or kill chains. Stealth 
fighters were originally designed to use their organic weapons. 
We're partnering with the Air Force to team them with large 
standoff arsenal planes so that they don't have to go land and 
resupply during a fight.
    Our third i-program is taking this even further, connecting 
disparate sensors and shooters from across the joint force.
    The rest and best of our details necessarily remain 
classified, but I hope these few examples give you a sense of 
how broad the applications could be. We should really let no 
facet of future conflict be predictable or be as it seems.
    As one of the bellwethers for the return to great-power 
competition, I'm pleased say that SCO is making significant 
progress in making current systems count towards a future 
that's shaped by us, and not for us. I really appreciate your 
interest in this topic, appreciate this hearing today. I look 
forward to any questions you might have.
    [The prepared statement of Dr. Roper follows:]

            Prepared Statement by Dr. William B. Roper. Jr.
    Chairman Fischer, Ranking Member Nelson, and Members of the 
Subcommittee, thank you for the opportunity to testify before you today 
on this important topic. I am Will Roper, Director of the Strategic 
Capabilities Office, also known as SCO. It is an honor to be here with 
esteemed colleagues from the research and development arm of the 
Department who strive each day to maintain our technology edge against 
a world of threats. As these threats fill the vast space between non-
state terrorism and great power competition, the Department's Third 
Offset Strategy is returning greater focus to highly-sophisticated 
adversaries. Recently created in 2012, SCO is the near-term component 
of this broader strategy, so I would like to share our framing of 
immediate challenges; process for prototyping solutions; partnerships 
with the Services, Agencies, and Intelligence Community; and examples 
of our ongoing work. This will be the focus of my remarks today.
          understanding the challenge: an instructive analogy
    Our national security environment is one of complexity--the 
problems we face are intricate, interconnected, and difficult to 
simplify. In addition to the all-too-familiar threats of violent 
extremism, nuclear proliferation, and malign influences in the Middle 
East, the United States now faces a rising China and revanchist Russia, 
both challenging international laws and national sovereignty. These 
concerns span a world that is changing rapidly due to commercial 
technologies connecting us-- and the things in our lives--more quickly 
and inextricably than ever before. Though challenges themselves are not 
new to the Defense Department, this rate of change is. It will affect 
all aspects of our national security, including our return to great 
power competition.
    Though daunting in many respects, we interpret our immediate 
challenge via a simple, but instructive, analogy: that the U.S. 
military is akin to a football team running a successful playbook, but 
for too long. As in football where opponents watch film to find 
weaknesses, our decades of operations in the Middle East have provided 
valuable ``game film'' for rising powers to study and exploit in their 
weapons and strategy development. Though we still have the most 
dominant military of earth, we will not remain so if we continue 
running our 20th-century playbook indefinitely. We must change; the 
question is: ``How?''.
    SCO's answer is to do what football teams do: great teams often 
find themselves over-analyzed and exploited, but they do not throw out 
their old playbooks. They turn this vulnerability into opportunity by 
creating trick plays: running in pass formations, passing in run 
formations, reimagining their strengths rather than playing to 
opponents'. In like fashion, we can rejuvenate our military playbook by 
reimagining its strengths--ships, subs, aircraft, vehicles, etc.--using 
them in unforeseen, and hopefully uncontested, ways. The SCO was 
created over three years ago by Secretary Carter to do precisely this. 
Since then, we have developed capability partnerships with every 
Service, four Combatant Commands, and the Intelligence Community--
opportunities for implementation are everywhere. Though this strategy 
often has advantages of lower cost and rapidity, its core tenet--our 
Department's need for change--is anchored in a greater advantage: our 
experienced operators, who can do the unparalleled with today's systems 
and rapidly master unconventional tactics. As in football, it is 
people--not plays--that ultimately win the game. This strategy also 
provides healthy connective tissue between our past and future efforts: 
the past, by keeping taxpayer investments viable for as long as 
possible; the future, by buying additional time for new technologies to 
field. Because of this, SCO is the near-term element of the broader 
Third Offset; our goal, to enhance deterrence backed by an arsenal of 
surprises and sleights of war using systems we have today.
    Striking the balance between deterrence and warfighting is the one 
place our football analogy breaks down. There is no deterrence in 
football; teams show up to play regardless of skill differential. 
Because of this, surprises are never revealed prior to games, but the 
military must fulfill two competing roles: war reserves to win conflict 
and deterrence reserves to avoid it altogether. These latter 
``psychological salvos''--where capabilities are unveiled to change 
calculus and deter aggression--must be carefully and strategically 
analyzed to maintain a balanced stockpile for peace and war. Aiding 
this is SCO's second mission, and to that end, most of our capability 
details remain classified. However, I look forward to sharing some 
selected examples today, as well as our process for creating them.
                         sco innovation process
    Our innovation process is, itself, innovative because it flows in 
reverse: from existing systems to operational needs rather than 
operational needs to future systems. Living within the constraints of 
existing hardware and software focuses ideas, encourages joint cross-
domain thinking, and necessitates partnerships between SCO and system 
owners--namely Services, Agencies, and the Intelligence Community--to 
prototype and prove out concepts before buying them in bulk. In three 
and half years of practice, SCO has produced 15 projects containing 23 
capabilities, with a total of six transitioning by the end of this 
year, and none failing transition thus far. Our fiscal year 2017 Budget 
of $902 million includes 36 percent for Navy projects, 24 percent for 
Air Force, 18 percent for Army, and 22 percent for other institutions. 
As I will discuss momentarily, we partner with these organizations to 
execute projects, but several other process attributes are worth 
highlighting:

    <bullet>  Creative Imperative: We strive for five to six strategic 
capability alternatives in each budget cycle. This maintains our 
healthy sense of near-term creative urgency as we tackle long-term 
problems.
    <bullet>  Creativity Constraints: Constraints imposed by existing 
government and commercial hardware and software (e.g. size, weight, 
power) structure our innovation and provide clear termination criteria. 
This prevents endless meandering of projects and maximizes the chance 
of successful transition to programs of record.
    <bullet>  Cross-Cutting, Good-Enough Solutions: Squeezing the full 
potential out of current systems forces us to look orthogonally across 
Service, Mission, Classification, and Title divides; many of our 
projects integrate disparate capabilities into hybridized joint 
solutions. Because speed of response is a key metric, we also explore 
partial solutions that provide earlier or cheaper alternatives to 
Department leadership.
    <bullet>  Rapid Prototyping: Because SCO repurposes systems for new 
missions, our concepts are high risk until demonstrated, even though 
the systems, themselves, may be mature. By funding two- to four-year 
prototyping efforts inside existing Service program offices, we prepare 
for future transition without prematurely creating programs before cost 
and performance are understood. Executing inside existing program 
offices is a significant force multiplier for our staff, allowing a 
small, agile team to kick-start many simultaneous projects.
    <bullet>  Strategic Partnerships: Our partnerships with Services 
and Defense Agencies, Combatant Commands, and the Intelligence 
Community are the true secret to our success; we are simply a hub that 
allows these important spokes to turn differently.
    <bullet>  Services and Defense Agencies: All of the systems we 
reinvent are owned by Services and Agencies; as such, we cannot explore 
new concepts without their unique engineering and programmatic 
expertise. SCO partnerships now span the Air Force, Army, Navy, Marine 
Corp, and the Missile Defense Agency.
    <bullet>  Combatant Commands: Because our solution process is 
rapid, U.S. Pacific Command and U.S. European Command created local SCO 
teams to be our theater umbilicals, ensuring our ideas target their 
most-difficult challenges. This partnership is essential to our 
success, and we are excited to initiate new efforts with U.S. Strategic 
Command and U.S. Special Operations Command this year.
    <bullet>  Intelligence Community: SCO is a voracious consumer of 
intelligence; it is vital to our understanding of adversaries and 
opportunities associated with them. Because the information we covet 
must be synthesized across multiple topics and disciplines, we have 
forged close bonds with the Intelligence Community, turning their 
insights into new concepts.

    When applied to the broad U.S. catalog of systems, this process is 
evolving our immediate power projection playbook via three mechanisms: 
(i) repurposing systems for new missions, (ii) integrating systems into 
synergistic teams, and (iii) incorporating enabling commercial 
technology.
                i. repurposing systems for new missions
    Modifying systems for new missions, a practice likely to become 
easier as designs become open and payloads, modular, has potential 
benefits of lower cost and faster development, but it also provides an 
additional bonus--rapid force structure-- whenever modifications can be 
retrofit to current inventories en masse. Because inventory numbers are 
an important component of peacetime posture, achieving them rapidly 
makes this approach highly appealing whenever possible. Some examples 
of ongoing SCO projects include:

    <bullet>  Anti-Ship Standard Missile-6 (SM-6): SM-6 was developed 
in the early 2000s for air and missile defense of ships. By modifying 
its software, SCO and the Navy successfully demonstrated its anti-ship 
ability, giving the Navy the option of switch-hitting the 600+ missiles 
in its fiscal year 2017 Budget between offense and defense.
    <bullet>  Maritime Tomahawk: Tomahawk has been a perennial ship and 
submarine weapon since the 1980s, but primarily for land targets. 
Partnering with the Navy on advanced maritime targeting as part of our 
Strike-Ex project, we transitioned another dual-threat weapon option 
into the Navy's fiscal year 2017 Budget.
    <bullet>  Army Tactical Missile Systems (ATACMS) Upgrades: Options 
to upgrade the Army's ATACMS missile are also part of our Strike-Ex 
program. Because the modifications are higher risk than Maritime 
Tomahawk's, we will team with the Army to build and demonstrate an 
operational prototype, giving the Army multiple options for next-
generation fires.
    <bullet>  Hypervelocity Guns: The Army's 155mm Paladin and Navy's 
Five-inch guns are relatively unchanged since their development in the 
1990s. By leveraging projectiles from the electromagnetic railgun 
program and incorporating advanced composite materials, our joint team 
is prototyping a ``supersonic shield'' potentially capable of low-cost 
missile defense and long-range fires. In fact, a record-breaking, high-
speed shot from a howitzer was conducted earlier this year.
    <bullet>  Ground-Based Fighter Radars: The Air Force's F-15 Eagle 
radar was designed in the 1970s and continually modernized into the 
2000s. Partnering with the Missile Defense Agency, SCO is prototyping a 
ground-based variant to protect forward operating bases from dense 
missile raids, providing a mobile sensor counterpart to hypervelocity 
guns.
    <bullet>  Advanced MK-48 Torpedo: The MK-48 was designed in the 
1960s as the Navy's heavyweight torpedo and has been successively 
upgraded ever since. As the torpedo reenters production, we are 
partnering with the Navy to build a higher-risk, higher-payoff variant 
with advanced propulsion, modular payloads, and classified 
capabilities, enabling this undersea workhorse to go further and do 
more.
             ii. integrating systems into synergistic teams
    Teams of systems can survive--and even thrive--in contested 
environments where individuals, alone, would fail. This is simply due 
to separating, and then specializing, responsibilities amongst multiple 
team members as opposed to relying solely on super-star systems. Some 
of our most successful teams are architected across Service and Agency 
lines, as well as the Department's classified programs. Some examples 
include:
    <bullet>  Arsenal Plane: Stealth fighters are designed for enemy 
penetration but at the expense of weapons capacity. By teaming them 
with standoff Arsenal Planes, these forward scouts can continue to put 
lethal eyes on target without landing to resupply their weapons. 
Partnering with the Air Force, SCO will build and test an operational 
prototype by fiscal year 2020, giving the Air Force a completely new 
way to extend air power.
    <bullet>  Third Eye: Kill chains--the series of steps between 
finding and finishing targets--can be defeated by denying a single 
link. Our Third Eye program is working with multiple Services to create 
resilient ``kill webs'' where sensors and shooters are increasingly 
interconnected. Having already teamed disparate assets in live-fire 
demonstrations, this program should increase the difficulty of denying 
joint operations.
    <bullet>  Sea Mob: Navy ships are designed to carry high-value 
sensors and weapons-- as well our sailors--making them critical to 
protect during combat. By also making them motherships for small 
swarming boats, the resulting team can surveil dangerous areas without 
putting sailors in harm's way. Partnering with the Navy, SCO is 
building commercially-based kits to convert existing boats into 
autonomous ``sea mobs.'' In fact, we recently conducted a successful 
800km transit using an 11-m Rigid Hull Inflatable Boat.
           iii. incorporating enabling commercial technology
    The commercial revolution in smart technologies is rapidly changing 
most facets of the world. This revolution is taking the ordinary things 
in our lives--refrigerators, thermostats, phones, to name a few; 
infusing them with compact sensors and processors; and wrapping them in 
high-speed networks and cloud-based services. The net result is new, 
transformational applications, even though most of the underlying 
hardware--compressors, thermometers, and antennae--do not radically 
change. Its spillover into national security is accelerating. In a 
departure from the past decade, the Department must become a fast 
adopter of external technology to stay on the cutting edge. Though 
evolving commercial products may not meet all traditional DoD 
requirements, failure to move at their speed risks our entanglement in 
the global web of things, but not on our terms. We must envision and 
embrace smart military systems in order to thrive on this web, and 
using commercial technology and agile manufacturing to upgrade legacy 
assets is one way to begin. Some of our examples include:

    <bullet>  Advanced Navigation: Legacy air-to-ground weapons--like 
Small Diameter Bomb and the Joint Direct Attack Munition--use GPS to 
navigate, making them effective for strikes against terrorists but less 
so in regions where GPS is denied. Partnering with the Air Force, SCO 
is prototyping an upgrade kit leveraging commercial, smartphone-class 
sensors, giving the more than 37,000 weapons in the Air Force's fiscal 
year 2017 Budget the option for retrofitting smart navigation.
    <bullet>  Information Common Operating Picture (iCOP): Commanders 
use air, ground, and maritime common operating pictures, or COPs, to 
understand and respond to changing environments. In our ubiquitously-
networked world, understanding the information environment--changing 
sentiment, perspectives, trends, legitimate news, and manufactured 
propaganda--is increasingly important. Thanks to commercial advances in 
big data, analytics, and deep learning, barrages of open-source data 
are now understandable in real time but relatively unexploited by 
operational commands. Partnering with U.S. Pacific Command and the 
Marine Corps, SCO has built and tested a prototype information COP--or 
iCOP--allowing operators to understand the effects of U.S. actions as 
well as foreign attempts to undermine them. In fact, just last week, we 
released the first beta test version to support the ongoing U.S.-
Philippines Balikatan exercise.
    <bullet>  Perdix: Fighters are designed for speed and 
maneuverability, not loitering over hostile territory. By equipping 
them with 3D-printed swarming micro-drones, our fighters can now 
efficiently search hazardous areas without risk to pilots. Partnering 
with the Air Force, SCO has tested five generations of ``swarmbots'' 
out of F-16s and F-18s, including 150 at the Northern Edge exercise in 
Alaska last year.

    The rest and best of our project details must remain classified, 
but I hope these examples illustrate how widespread applications can 
be--no facet of future conflict should be as it seems.
                               conclusion
    In conclusion, both our great power challenges and opportunities 
are great: our challenges, because they require Department-wide change; 
our opportunities, because they involve some of our greatest 
strengths--ingenuity, technology, and operational prowess. If we 
leverage these strengths in concert, a new U.S. power projection 
playbook--one that undercuts attempts to exploit our predictability-- 
can commence with systems we have today and continue as advanced 
systems field in future. Sustaining momentum on this playbook will 
require taking the long view while maintaining a sense of urgency 
today. As one of the bellwethers for the return to great power 
competition, I am pleased to say that SCO is making significant 
progress in making today count towards a future shaped by us, not for 
us. I hope you will support the President's 2017 Budget as we seek to 
sustain momentum inside the broader, Department-wide Third Offset.
    Thank you, again, for the opportunity to testify today. I am happy 
to respond to any questions.

    Senator Fischer. Thank you very much.
    Again, welcome to all of you. I think this is going to be a 
fascinating hearing.
    Secretary Welby, if I could begin, a factsheet that was 
provided by the OSD [Office of the Secretary of Defense] states 
that realizing the third offset strategy will require the right 
combination of bottom-up innovation and experimentation to push 
the technical and operational envelope and senior-leader top-
down direction to initiate major programmatic, operational, and 
organizational change. I'd like to ask you about that last 
part. What the major programmatic, operational, and 
organization changes are being made as part of that offset 
strategy or--basically, what's the Department proposing to do 
differently in this budget request with regards to the offset 
strategy?
    Mr. Welby. Chairman, the--if I--if you look to the 
investments that are in the 2017 budget, there are some very 
significant muscle movements that you can see in that budget. 
I'll point to a couple of key technology areas first: a major 
reinvestment in hypersonic capabilities, an increase in the 
number of systems that we're carrying to the range in the 
hypersonics weapon regime by 50 percent, an increase in the 
investment in our ranges to increase our hypersonic 
capabilities, and investments in our laboratories in industry 
to take those systems from being technology demonstrators to 
being no-kidding weapons that we could actually think about 
deploying with our force.
    In the undersea arena, you see a significant reinvestment 
in unmanned undersea vehicles as an augment to our manned 
undersea force as a significant force multiplier, as a key 
experimental asset for the future of the Navy. You can see 
within that budget significant investments looking at a variety 
of novel weapons concepts that might have significant 
application to the future force.
    Over the last year, you've seen the Department really open 
its aperture to all sources of potential innovation, to include 
engaging the defense industrial base, in terms of ensuring 
transparency on their IRAD investments so we can work forward--
march forward together collectively against these kind of 
challenges, understanding what they're investing in, 
understanding what we're investing in. You've seen the 
Department engaging the innovative commercial sector through 
outreach efforts like--EWACS on the West Coast and the 
Secretary's continuous engagement with the commercial sector, 
trying to find ways to bring both people and ideas back into--
reinvigorate our activities.
    We are reemphasizing the importance of the DOD laboratories 
to this initiative. The laboratories in the individual services 
and our engagement with partner laboratories in DOE, as well as 
innovation engines that can help drive the future of the 
Department. We are emphasizing the need for speed from 
laboratory to fleet. The recognition that there's enormous 
innovation that has continued within the laboratories even 
while the Department may have reduced its focus on fielding 
that capability, but that store of novel ideas needs to be 
taken to the test ranges and experimented with.
    Finally, I want to point to the focus on prototyping and 
experimentation. When you look to the second offset that 
occurred in the 1980s, the ideas for that--for those 
technologies emerged in the mid-1970s. In 1979 and 1980, the 
Department conducted a series of major experiments on the 
western ranges, where we put together precision weapons, long-
range ISR platforms, the first flights of what became Joint 
STARS, the first systems of what became the Army ATACAMS, early 
flights of Apache Longbow, and many other capabilities. Across 
the range, in the classified portfolio at that time, we were 
flying the F-117 and experimenting with the emergence of real 
stealth capabilities. That incredible innovative energy that 
occurred at the operational level, not simply doing laboratory 
experiments, but putting it into the hands of operators and 
letting them understand how they might fight those 
capabilities, is what enabled the set of capabilities that in 
the 1980s, as the Reagan defense buildup, we didn't buy the 
same things; we bought an entire new generation of 
capabilities. But, we didn't buy it blind. We bought it with 
the knowledge that came from those exercises. The Department is 
now preparing for another series of investments in prototyping 
and experimentation. We want to get our ranges busy again. We 
want to get new systems out on those ranges. Whether we procure 
them all, or not, we want to learn from those systems and 
inform what we need in the future.
    Senator Fischer. Right.
    Mr. Welby.--making the Department smart for its future 
choices.
    Senator Fischer. In the budget's 3.6 billion, funding 
specifically related to the offset strategy, can you provide 
the committee with a breakdown of this funding? Will you get 
that information to us, please, by programs?
    Mr. Welby. I'd be happy to provide you detail. Some of 
those remain classified.
    Senator Fischer. You've mentioned a lot of them, but can 
you get us the detail, by program, for that----
    Mr. Welby. I'd be happy to do that.
    Senator Fischer.--for that spending? Thank you.
    [The information referred to follows:]

    Within the Secretary of Defense's written statement before the 
Senate Armed Services Committee, Secretary Carter discussed the Third 
Offset Strategy for investing in and operationalizing our security by 
leveraging advances in cyber, space, electronic warfare, biotechnology, 
artificial intelligence and other areas. A classified list representing 
the Department's investment in the Third Offset Strategy will be sent 
separately.

    Senator Fischer. Also, we're going to have a change of 
administration in January, and what sort of things do you want 
to have accomplished by that time to demonstrate that this 
effort is on the right path?
    Mr. Welby. I'm sure that any transition team that--for any 
administration to come is going to face the same set of 
challenges that we face today. The pull here is the recognition 
of the need to address U.S. strengths in a future competitive 
national security environment. That's an external pull. This is 
not--while this is Dr. Carter's initiative, it's the Deputy's 
initiative, while I'm trying to drive this, it's not driven by 
personality; it's driven by the Nation's need to refresh our 
technology----
    Senator Fischer. Right. How--and what are you going to 
point to that you've accomplished? I think you have a lot of 
support on this committee. We understand the importance of 
where we're headed with technology in order to change 
warfighting so that we continue to defend this country. How are 
we going to make sure this moves forward?
    Mr. Welby. We're not going to stop for the next 9 months of 
running to make sure that the next administration has a running 
start to these problems. We've completed, recently, the Long-
Range Research and Development Planning Program, an 18-month 
study that looked at details and laid out a series of 
opportunities for the Nation, going forward. All that material, 
we're trying to harness across the laboratory complex today to 
make sure we're ready for what comes next. I think that we--
that this budget and the initiatives we have ongoing prepare 
for that future in an important way and lay ground for the next 
administration.
    Senator Fischer. Okay. Thank you very much.
    Senator Nelson.
    Senator Nelson. Thank you, Madam Chairman.
    Mr. Secretary, thank you for your public service.
    Dr. Prabhakar and Dr. Roper, given the fact that I've 
already spent a great deal of time with both of you, asking a 
lot of questions, and given the fact that our enemies' spies 
are listening to what you say today, I really don't want to ask 
you any questions in an open session. I would invite the 
members of this subcommittee to get in a classified setting to 
figure out some of the gee-whiz stuff that these folks are 
doing. But, since it's an open setting, I'm just going to leave 
it to you. Say whatever you'd like. That's all I'm going to 
say.
    Dr. Prabhakar. Well, it's hard to resist an invitation like 
that. Thank you very much, Senator Nelson.
    You know, I think, absolutely, the details of the programs 
that we think can be very impactful here do need to remain 
classified. We're happy to provide classified briefing to any 
of you who would like to come do that. We'd be very pleased to 
do it.
    I actually think the most interesting aspect of what we're 
all working on in the third offset strategy and these 
technologies--really, the question, as a technologist, that I 
see is--in a world in which we no longer get to have all the 
toys and nobody else gets to have any technology capability--
that was an unusual period, after the second World War, when we 
had that enormous technological advantage over the rest of the 
world--that's not the world anymore, and we all know that 
technology, wherever it originates, it flows. We know that many 
other countries now have amazing engineers and scientists and 
laboratory facilities. All of that is really good for the 
world. It's actually--it's elevated living standards. It's 
connected us in new ways. Most of that is good news.
    The challenge, of course, that this is all about is the 
fact that we still have to come up with a technological edge 
for national security, despite a more and more level playing 
field of initial technologies. I actually think the success 
here is going to come from something that's a deeply American 
way of approaching the problem. I--you know, a lot of what we 
do at DARPA is about this idea that we're going to--we're 
willing to take risk to reach for high payoff, and we are 
willing to try things that might fail. But, in combining these 
commercial technologies, accessing leading-edge commercial 
technology and then combining it with places where we do have 
an edge and where we can protect the technology, at least for 
some period of time, if we can learn to do that and move faster 
than anyone else around the planet, I'm actually quite 
confident that we are still going to be able to win in this 
competition.
    Dr. Roper. Senator Nelson, I think it's an important point 
that you raise, is that a lot of the technology edges that 
we're going to develop are developing, and will be moving to 
testing very soon, are surprises. They're things that are 
intended to deal us back into the game. They're intended to 
project power in different ways that we haven't before. There's 
going to be a very difficult calculus that we're starting to 
begin as part of the third offset effort, which is, Is it a 
surprise that we want to tuck behind our locked doors and save 
to be able to win a war? We have to be able to so that. That's 
our job, as the Department. But, if we were to put every 
surprise that we develop behind the door, we would be biasing 
our portfolio towards a go-to-war posture, as opposed to a 
deterrent posture.
    One of the challenges we're going to have is, we're back 
into a deterrent mode, as the Department. But, as opposed to 
the Cold War, it's not a monopolar deterrent posture. We've got 
to do it in a bipolar way. Must be able to think about China 
and Russia while we continue to focus on the Middle East, 
continue to focus on North Korea.
    There's no easy math for deciding whether or not to show a 
capability, or not. We've started putting some of our 
capabilities public now from Strategic Capabilities Office. We 
have had almost no public face for 3 and a half years. As you 
were able to see yesterday, quite a lot of our portfolio is 
behind the door, and deeply so. But, if we put everything 
there, we'll be doing the country a disservice, in the long 
run.
    Senator Nelson. Thanks.
    Thanks, Madam Chair. That's it.
    Senator Fischer. Thank you.
    Senator Tillis.
    Senator Tillis. Thank you, Madam Chair.
    Thank you all for being here. I look forward to future 
briefings in a classified setting. I appreciate the work that 
you all have done.
    I'm going to go to the more, maybe, boring side of the 
equation, and it has to do with actually getting good ideas 
fielded and in use. That gets to procurement, acquisition, 
specification, partnering with the private sector, where it's 
appropriate. Can you give me some idea of where you all think 
we are and where we need to focus, perhaps even as a matter of 
public policy changes to remove constraints and try and 
compress idea-to-fielding timelines over what we have today?
    We'll start with the Secretary.
    Mr. Welby. Senator, I--we're emphasizing, in every 
engagement, speed. In--as we enter a more competitive future, 
where we're all drawing off a globally accessible technology 
base, we're going to need to close our acquisition OODA 
[Observe, Orient, Diode and Act] loop, if you will, faster than 
our adversaries. We have to turn quickly. We need to think 
about time to market, like folks do in the commercial sector. 
We've been engaging our laboratories in a discussion about how 
quickly we can move ideas from our tech base to the field. 
There's no way to rush discovery. I mean, science takes the 
time it takes. But, we ought to be thinking, even as we're 
exploring new areas, about that application and how we can 
prime the pump for that application.
    On the acquisition side, we've been challenging ourselves 
to be able to move faster, especially at that cutting edge of 
new technologies. We've been looking for ways to be able to 
engage new partners in timelines that might be measured in 
weeks, rather than months and often a year, to contract. 
Especially since we're dealing with fast-moving technology 
areas, people aren't willing to wait for a year for the 
Department to get involved. It--there's no return on that. 
They'd rather focus on commercial-sector engagements.
    We've been exploring new means to much more rapidly get--
bring folks on to contract, to use competitive vehicles in 
commercial acquisition, and to think about new ways to bring 
technology into platforms and systems, leveraging modular 
architecture approaches, for or persistent architecture 
approaches for example, be able to plug-and-play technologies 
into our existing systems to speed the upgrade cycle.
    I think that, through the S&T initiatives, through the 
formal acquisition initiatives, the Department's better buying 
power, 3.0 activities, which have a large focus on modularity 
and tech insertion, I think that we are trying to move much 
faster as we go forward.
    I think, in the future, we won't see 30-year development 
programs in anything. Adversaries will have countermeasures 
prepared for a decade before we field something, if that's the 
case. We need to up our game, in terms of speed.
    I don't know if anybody else has anything you want to add.
    Dr. Prabhakar. I would just add, first of all, that, in the 
work that we do at DARPA, of course, we live in the science and 
technology part of the portfolio. I want to be very clear that 
our task in developing technologies is not as onerous as 
procuring systems that our warfighters, you know, need to be 
confident in and they can trust under extreme circumstances.
    Having said that, we've had the opportunity, over the last 
many decades now at DARPA, to experiment with some novel 
procurement mechanisms that your committee invented and 
authorized over numbers of years. One example is other 
transactions authority. That's an example of a capability that 
we and others in the Department have. We've used it to great 
effect, essentially to do business with companies on commercial 
terms. It--we comply with the law, but we are able, under other 
transactions authority, to set aside the Federal acquisition 
regulations along--and part of that, of course, means that we--
we're not forcing companies to do government accounting systems 
and to have that burden. Especially for commercial companies, 
it's a particularly good way to be able to move faster, and 
sometimes it just enables them to be willing to do business 
with us in the first place.
    I think there are some practices like that, that I think 
we've been able to pilot that we hope can be expanded.
    Senator Tillis. Dr. Roper?
    Dr. Roper. Senator, I think, you know, our piece within SCO 
is really trying to complete the circle on the acquisition 
process. We currently flow from an operational need to a future 
system that we field. As Secretary Welby pointed out, there are 
lots of efforts underway to try to speed that cycle up. But, 
wherever we can find ways to take things that have come out of 
that pipeline and bring them back to the beginning, solve 
additional operational needs, whether they're within that 
service or outside of it, then we're producing lower-cost 
options that will allow that service to build budgets, where 
there's more innovation in them.
    The biggest issue that service programmers bring up to me 
is that they want to innovate. I can attest, from the programs 
we do with them, there is incredible innovation potential in 
the services. It's resident in every partnership we build with 
them. When they build a budget, if their readiness, the fight-
tonight capability, is put at risk, the first thing that has to 
go is the innovation side of it. Wherever we can buy them 
flexibility and breathing room to keep that innovation in play, 
we're doing a good thing, not just for them, but for the 
country. We've got to make stuff that our taxpayers have 
already invested in do more and stay viable longer if we're 
going to free up funds to go for the big-win technology leap-
aheads.
    Senator Tillis. Yeah. I think your point about turning 
defensive weapons into--transforming them into offensive 
capabilities, and vice versa, is very good. The--because I'm 
assuming that the time to field that capability is far less 
than an all-new platform, and that's why it's important that we 
squeeze everything we can.
    In my remaining time--you touched on something, Dr. Roper, 
that I was going to ask. I know that Secretary Carter has 
announced a program engaging--trying to expand our engagement 
with Silicon Valley in partnering with some of the major tech 
firms. But, in my experience--I'm from North Carolina, and down 
in and around Fort Bragg, there's a lot of small businesses 
that come from people who have battlefield experience. They're 
coming out, they're perfecting things that have extraordinary 
potential, more often than not because they had to put the 
first iteration together with duct tape and Super Glue, they 
had to use commercially available products.
    To what extent does your area of focus focus on sometimes--
you know, sometimes you need $100 saddle because you've got 
$100 horse. But, sometimes you've got a $10-horse problem you 
want solve, which is what I've seen a lot of these folks doing 
down here. It seems like every once in a while, DOD wants to 
put $100 saddle even on a $10 horse. How are we getting some of 
that applied small-business feedback into the mix as a key part 
of the innovation loop?
    Mr. Welby. Maybe two quick responses.
    First is that I'm frustrated that a lot of the discussion 
around engaging the innovation ecosystem has used Silicon 
Valley as the term of art, but, quite frankly, there is 
remarkable work going on from Boston to Austin to Silicon 
Valley, Research Triangle--I've gotten right back to that one--
--
    [Laughter.]
    Mr. Welby. But--and I'll touch everybody in the room--but, 
look, it's--and I think that there's really interesting things 
going on in the small-business side. The Direct to Phase II 
piece, for example, on our civil work, is now--we've now 
identified new mechanisms by which we can reach out and touch 
small businesses, not just at the hey-do-a-study-for-us scale, 
but the no-kidding-rapidly-moving-to-a-prototype-so-we-can-try-
it--to get at those folks who have near-immediate solutions and 
put them into test and evaluation.
    I--as the Secretary has pointed out, the Department needs 
to focus on porosity, our openness to ideas, wherever they 
come. We need to take the blinders off and not just to be--look 
to the defense industrial base as the only source. It's an 
important source, but it's not the only source of ideas. We're 
trying to reach out anywhere we can.
    Senator Fischer. Thank you, Senator Tillis.
    Senator Heinrich.
    Senator Heinrich. Secretary Welby, this committee, last 
year, showed really strong bipartisan support for directed 
energy weapon systems in the NDAA, and we asked that the 
Department look at that as part of the third offset approach. 
How much of the 100 million provided by Congress last year 
within this effort has gone towards directed energy?
    Mr. Welby. Thank you, Senator. We have not--the language in 
the report last year for the offset technology initiative 
requested that we go out and survey the services, looking for 
competitive ideas, survey the COCOMs, looking for ideas. We 
have completed that. I have--we have a stack of proposals that 
we're going through now, and we're allocating resources against 
them, expect to be able to provide the details of what we fund 
from that list here in the next week or two. I am certain that, 
in that stack of proposals, there will be directed energy. They 
are at--they are near the top of the list of things we want to 
do. I'm expecting that, of the list of things, order of 20 
percent would be focused on directed energy. But, we're still 
trying to finalize both the list and ensuring we've got the 
right budgets for those projects. We want to make sure that the 
things we do fund with that activity are robust and are not 
underfunded.
    Senator Heinrich. I agree wholeheartedly with that 
approach. Just to sort of follow up on that, I'm curious 
about--it seems to me that this technology--directed energy, in 
particular--could be one of those places where we really do 
provide an offset. It's--doesn't have a peer-relatable 
equivalent in other military spaces. I actually introduced 
legislation this morning with Senator Inhofe to look at 
granting rapid acquisition authorities for directed-energy 
weapon systems. I'm curious--and this could be for any of you, 
actually--in your opinions, is this an area where the 
Department is moving fast enough to transition the technology, 
or are we sort of stuck in an endless R&D [research and 
development] loop, where it's always easier to chase the 
perfect instead of field what is quite applicable today?
    Mr. Welby. Senator, I participated in the Directed Energy 
Professional Society Symposium at the Pentagon today. We have 
over----
    Senator Heinrich. Good timing.
    Mr. Welby.--we have 20 folks sitting in the courtyard of 
the Pentagon today, demonstrating next-generation laser 
capabilities and high-power microwave capabilities. As you 
know, I've spent a good portion of my career working in this 
space. I remain convinced that we are now at the point where 
we're moving out of the labs and into application space with 
those kind of systems. I saw some remarkable technology on 
display today. We're encouraging folks to think about how we 
can accelerate those into real applications.
    I think that directed energy has suffered from being--from 
always being just 25 years off. I think we're now not 25 years 
off. I think there are real applications in the near term, and 
opportunities to grow those applications in the mid-term. I'm 
excited about the space.
    Senator Heinrich. I appreciate you mentioning microwaves to 
somebody who used to work at Air Force Research Labs on 
microwaves as well as lasers. Sometimes we forget that 
application. When you look at things like CHAMP and other 
applications, it is substantial.
    For, really, any of you, one of the things I'm concerned 
about--with the possible exception of DARPA, actually--I think 
there's been a real risk averseness, generally, within the R&D 
approach of the Department of Defense, at times. In looking at 
our nuclear labs, one of the things that has worked there to 
get around an obvious--you know, it's easy to be risk-inverse 
in this environment. You've seen huge advances, for example, 
on--in energy, with things like solar technology, prices 
plummeting, but one Solyndra can become a political issue. It's 
easy to accept that same sort of mindset within defense 
research.
    LDRD, laboratory-directed research and development, has 
been one of the places where, within the nuclear labs, it 
really has seemed to be a high-risk but high-reward endeavor 
that is incredibly valuable, for one, in attracting the right 
talent into the pool in the first place.
    I'm curious how the Department views that balance between 
risk and reward, and what steps are needed to ensure that 
researchers have the leeway and the flexibility to pursue 
something that is truly innovative.
    Mr. Welby. Senator, across the laboratory complex, we have 
to recognize that there's a number of constituents we try to 
service.
    Senator Heinrich. Sure.
    Mr. Welby. There are near-term transitions into programs of 
record. There are those medium-term capabilities that seek to 
be able to demonstrate capability to drive the next program of 
record. Then there are activities that are further to the left 
that are really trying to be disruptive. We have been focusing 
the laboratories, over the last year, on trying to be explicit 
about how we manage those three portfolios, how we think about 
those things that are near-term and in service of programs of 
record, how we think about those things that are shaping, kind 
of, the next program, and those things that are much more 
foundational.
    Just a couple of examples of things that we're doing. We--
in--across laboratories, we've now created resources available 
to the laboratories out of the OSD-level budgets, where we've 
asked the laboratories to compete--to compete on ideas for who 
has the greatest game-changer. We've offered to amplify service 
budgets in areas where we can see that real impact. Internal 
competitions, right? But, to get teams challenged and thinking 
about competing with each other, kind of, across laboratory 
complexes.
    The trick is, of course, at the end, we tend to team those 
folks together to get all the best and brightest of the ideas 
across, because we're really in one game, but it's encouraged 
folks to think differently.
    Within the services, as well, each of the services has been 
trying to drive more innovation through their own long-term S&T 
pools. I'm very excited about how that's taking place.
    Senator Heinrich. Doctor?
    Dr. Prabhakar. Maybe just to tag onto that. DARPA's very 
much in the high-risk, high-payoff business.
    Senator Heinrich. Sure.
    Dr. Prabhakar. I never take for granted the room that we 
get to do that, starting with our bosses, starting with Steve, 
but all the way up to the Secretary, and definitely from 
Congress. That--you know, I think--I feel very privileged to 
lead an organization that has delivered on that mission for 
long enough that you all give us rope. All we have to do is 
come up with the next revolutionary capability.
    But, within the agency, as well, I don't take for granted 
how we nurture that. Steve's exactly right that, you know, you 
do need to manage a high-risk organization in a very different 
way.
    Senator Heinrich. Right.
    Dr. Prabhakar. But, continually nurturing that culture, 
making sure that our business processes reflect the mission and 
that culture, it's everything from the conversations I have 
with my program managers when I walk by their offices to the 
way that they work to get their programs approved. I think it's 
something that needs concerted focus, but----
    Senator Heinrich. Yeah.
    Dr. Prabhakar.--I think we know how to do it, and I think 
it's a--it is an essential ingredient in the mix.
    Senator Heinrich. Great.
    Senator Fischer. Thank you, Senator Heinrich.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    Thank you all.
    I'd like to ask--I think this is to Mr. Welby, if I may, 
Secretary. Secretary Carter recently announced a major 
initiative for outreach to high-tech companies in Silicon 
Valley, as you know. DOD has--also has a small business 
innovation research program that taps into technology 
innovations from all around the country. The SBIR program helps 
small business compete to bring value-added products and 
services to our military. This program is extremely helpful for 
the economy of West Virginia, because we have a corridor which 
really participates in that. I'd like to ask, How are we 
coordinating efforts of engaging these small companies to work 
with DOE? My reason for saying that, some of them get into the 
procurement process, they have to tag along with a large major 
in order to get any pittance of a little bit of work and become 
subservient to that. Is there any method of getting them 
directly into the flow, if you will?
    Mr. Welby. Senator, I also highly value the small business 
innovative research activities. I think that my experience 
working with companies in the small business innovative 
research area has allowed them to grow rapidly and actually 
contribute in important ways to major----
    Senator Manchin. Right.
    Mr. Welby.--defense acquisition programs.
    I mentioned earlier the Direct to Phase II activities, 
which all us to make initial grants to companies at a much 
larger scale than simply, ``Here's 100K to kind of--to go 
develop a proposal,'' the very early study grants that SBIR has 
typically worked through to cut a year off the time to get 
people up to scale and to be really playing with real--at real 
working levels, up to a million dollars for an initial grant, 
which is a lot for a small company, initial space.
    The--one thing I should--I want to point out about the kind 
of engagements we have with this Defense Innovation Unit 
Experimental [DIUX], for example, is, again, it's not 
geographically tied. We want them to be engaged over a broader 
portion of the country. We've not given them acquisition 
authority. That organization is really intended to help 
shepherd small companies through the process, make 
introductions to help them understand the process, to, if you 
will, act as a shepherd to kind of help them work their way 
through the system. We're experimenting with that idea that 
getting small companies, getting the kind of core innovation 
drivers that we see in small business through our system is a 
contact sport and requires significant help, folks who speak 
their language, who understand the innovation ecosystem, 
understand companies' commercial ambitions, as well, and can 
still talk DOD to them. We're trying to understand how that 
works. That's the experimental portion of DIUX. It really is an 
experiment to see how we can gauge better.
    But, we are trying to find new opportunities to introduce 
small-business work throughout our enterprise. We're 
continuously reinforcing our small-business participation 
objectives in all of our programs.
    Senator Manchin. You all go out and solicit this? I mean, 
go talk to some of the areas, where they're--not just Silicon 
Valley, but, I mean, other----
    Mr. Welby. I do. Our team does. We are thinking hard 
about----
    Senator Manchin. Can we get you down to West Virginia? Can 
I get you down?
    Mr. Welby. Sir, I'd love the opportunity to come visit. 
I'd----
    Senator Manchin. Hey, Rick, sign him up.
    [Laughter.]
    Senator Manchin. We'll get you down there. It's not that 
far away.
    To Dr. Prabhakar, one of the joys of being a Senator is 
being able to nominate some of the best and brightest to our 
military academies. It's really, really something special, when 
you see these young, bright people coming from all over the 
country and getting this opportunity. I would ask--DARPA 
regularly engages with civilian universities, which we're very 
appreciative of that, too, for the advanced research efforts. 
How--what's the percentage of how you all engage with our 
military academies versus the private? Because we know it's 
going to be used--and I'm understanding that, basically, they 
do a senior project, all the military academies, to participate 
in cutting-edge defense research. These are people not only 
that are participating, but going to be fulfilling them. Do you 
put more of an emphasis on academies than you do private?
    Dr. Prabhakar. Senator, our starting point with everything 
that we do at DARPA is to go out and find the technical talents 
that are going to have the ideas and the ability to go execute 
on them. Through that, we work with universities of all sorts, 
but also, of course, a lot with companies of all----
    Senator Manchin. You all pay----
    Dr. Prabhakar.--sizes.
    Senator Manchin. You pay, right?
    Dr. Prabhakar. Our--we fund those projects and those 
companies. We're actually only----
    Senator Manchin. You're already funding--we already fund 
the military academies. We already paid once.
    Dr. Prabhakar. I think it's a great question you've raised, 
because I think about the people who are attending those 
military academies----
    Senator Manchin. Yeah.
    Dr. Prabhakar.--frequently. They are going to be the 
warfighters who use the----
    Senator Manchin. That's exactly right.
    Dr. Prabhakar.--technologies that we are brewing. We reach 
out to them in a variety of ways. In recent years, as an 
example, we conducted a competition among the academies in the 
cyber arena. That's one, in particular, where the--you know, 
there's a lot of interest, but also a great need to continue to 
educate warfighters that are going to be adept in the cyber 
environment.
    Senator Manchin. Could I----
    Dr. Prabhakar.--they are very much part of our community.
    Senator Manchin. Would it be possible to get a report, 
basically, on the amount of money that you all do put out in 
doing these--engaging in these research----
    Dr. Prabhakar. Yeah, I'd be happy to look into that.
    Senator Manchin.--versus----
    Dr. Prabhakar. Just to set your----
    Senator Manchin.--versus the academies.
    Dr. Prabhakar. I just--I'd be happy to get you that data.
    Just to set your expectation, the amount of research that's 
done of the sort that we typically fund at the academies is 
fairly limited, because their focus, of course, is educating 
these young folks who are going to become our future 
warfighters. I would be happy to get you that data.
    Senator Manchin. But, what you're going----
    Dr. Prabhakar. But, that's now where the research----
    Senator Manchin.--you're going to----
    Dr. Prabhakar.--is typically done.
    Senator Manchin. You're telling me right now, you don't put 
much in the academies.
    Dr. Prabhakar. I don't think you'll find a significant 
amount of money flowing there. But, again----
    Senator Manchin. Let me ask you this----
    Dr. Prabhakar.--their role is different----
    Senator Manchin. Cadets and----
    Dr. Prabhakar.--from what we do.
    Senator Manchin.--midshipmen start their senior project, 
they have--they have to have a senior project.
    Dr. Prabhakar. Yup.
    Senator Manchin. Okay? Do they know there is a pathway that 
they could take something of high cutting-edge, such as what 
you all are looking for? I mean, to me, I--maybe I'm wrong, I 
don't know. I just believe that we've got some outstanding--you 
know, I'm not saying universities--I mean, we have research, WV 
and all of them.
    Dr. Prabhakar. Yup.
    Senator Manchin. But, I'm saying, we already own this. We--
this belongs to us. Those are 4- to 5-year employments 
afterwards, so we know they're going to be the ones who are 
going to be implementing everything we're doing.
    Dr. Prabhakar. Yes, I agree that they are an important 
part. But, again, DARPA'S role----
    Senator Manchin. I know.
    Dr. Prabhakar.--is about research; it's not really the 
education of that part of--you know, that critical part of our 
workforce.
    Senator Manchin. I gotcha.
    That's--no further questions,
    Senator Fischer. Thank you, Senator Manchin.
    I think it's safe to say that the goal of this initiative 
is to preserve and enhance our technology-based military 
superiority. That's part of the meaning of the term ``offset.'' 
We're not going to be fighting our adversaries tank-to-tank 
anymore. Technology does provide us that advantage and the 
offset to--with capabilities for others.
    Dr. Roper, you know, I'm concerned that we become so 
reliant upon technology that that reliance can be exploited, 
and it can be exploited very cheaply, in some instances. I 
think space is a good example for us to look at in that regard. 
Our adversaries can jeopardize our constellation for a lot less 
money than developing new technology for us to build here and 
take advantage of that. How do you ensure that the greater 
incorporation of technology doesn't turn into a dependence? How 
do you ensure that we don't allow our adversaries this 
opportunity to be able to undermine what we're trying to do in 
a really--basically, a cheap way?
    Dr. Prabhakar, I'd like to ask you that, as well.
    Dr. Roper. Thank you, Senator. It's a great question. I'll 
address the space component of it, but I'd like to then broaden 
to the bigger question----
    Senator Fischer. Yes.
    Dr. Roper.--of, you know, where is--where does technology 
end and other advantages begin?
    I think, as indicated by a lot of the discussion this 
morning, we're moving into a regime where relative technology 
advantage is going to be lowering amongst the great powers in 
the world. The United States, China, Russia----
    Senator Fischer. Our adversaries are catching up to us.
    Dr. Roper. Catching up. We're also living in a world where 
technology is speeding up, so the impact of commercially 
available technologies is going to be large. It's also going to 
be available to everyone. This is going to force the 
Department, as well as our adversaries and competitors--it's 
going to force us to become fast adapters. When we look at 
areas where the environment's going to be contested--and space 
is one of those--there's obviously the disadvantage of not 
having the legacy way that we've projected power be something 
that can be continued into the future, but we'll be moving into 
a future where there is hope for us. It's very likely that 
we'll start having distributed space architectures and future 
where maybe individual satellites are contestable, but the 
architecture, as a whole, isn't. That'll force us to start 
using statistics as a metric, where you're not--you can't 
calculate the reliability of a single thing, but you're doing 
it in aggregate. That's something very common for many 
industries. The cellular companies that sell to us are used to 
having a statistical approach to their availability, as opposed 
to a singular one.
    What I think this means is that warfighting is going to be 
messy. We're not going to be able to go in and have very simple 
mathematics and physics help us calculate the margin of battle. 
Things are going to be constantly changing. Satellites that are 
available won't be. Networks that are available won't be. If 
we're wise, we'll have architectures in place where we hop 
between different assets that are available.
    I think that's where we actually get off the stage with our 
biggest advantage. That's a messy environment. Not every 
country is going to be able to get their operators ready to 
deal with it. The greatest advantage we have, and the reason I 
think we'll pull this offset off, is that we're coming out of 
20 years of operational experience that no one in the world can 
match. We're saying to the world, we're going to change, we're 
going to go into this messy environment with our eyes open, and 
we're going to dominate in it. That's based on giving 
operators, one, the technology to be able to adapt in that 
environment, but trusting them to be able to use it and master 
it.
    I think the biggest ill that we could do, as a Department, 
is to have all the shiny bells and whistles in the technology 
world, which are important, override what's underwriting it, 
which is our human operator foundation.
    Senator Fischer. Thank you.
    Dr. Prabhakar.
    Dr. Prabhakar. Yeah, I think Will's completely correct with 
what his--especially his concluding point. I often think about 
how reliant, even in our civilian lives, we've all become on 
GPS, where I only will just follow that blue dot or listen to 
those instructions. That's a great example of needing to 
remember that technology is a very powerful tool, but it 
doesn't allow you to suspend judgment. We're seeing some 
examples where that's really gone wrong.
    Technology is, of course, only going to be one component in 
the solutions that we're talking about here. We very much see 
part of our job, of course, driving the technology, but also 
thinking in terms of, How do we make it secure and reliable? 
Cybersecurity is a very big part of that. We have a significant 
portfolio that focuses on that.
    But, at the end of the day, it really is about how humans 
use the technology. I think, as we have moved from more of a 
gadget focus to, ``How do you think about winning the war?'' it 
has really driven our thinking to rarely think about the whole 
system of how humans and machines are going to interact 
together. That's a much harder problem and a much richer 
problem, but I think it's going to be important to getting to 
solutions that really do work.
    Senator Fischer. Mr. Welby, I've seen a factsheet that was 
put out by the Department, and it discusses those investments 
that I believe the Doctor was just talking about, with the 
human and the machine collaboration that's going on. It states 
all of these components will be connected to a cyber-hardened 
human-machine command-and-control network. You know, we're not 
really good at keeping adversaries out of our networks. Let me 
rephrase that. We are good at it, at keeping them out, but they 
still get in. How are we going to have confidence that we have 
the ability to build this cyber-hardened network? Do you think 
that the network should come before we think about the pieces 
that rely upon it? Should we make sure we have the security 
there before we get the bells and the whistles that depend upon 
it?
    Mr. Welby. Senator, I believe that there's a real 
opportunity here to codesign these capabilities in ways we have 
not in the past. One of the really interesting things that's 
going on is this notion of autonomous systems, systems that I 
can give direction to, and that I can have confidence that 
they're going to have certain behavior and then check back in 
with me at some future point. That offers a way to think about 
how systems can actually operate on--even on unreliable 
networks. By reducing the bandwidth required to, for example, 
tell the operate system; by having the ability to have systems 
interact with humans by exception, just as I would with--send a 
soldier up a hill, call me if you see something that you need 
assistance with--I can start to think about machines that might 
be able to do that.
    We--we're talking about manned-unmanned teaming and trying 
to understand how that works, what kind of bandwidth is 
required, where and when systems need to interact. I think it's 
very important in scoping the networks required to support 
those.
    We did some recent studies, where we looked at just how 
little bandwidth was required to ensure control over--in a 
simulated environment or some notional unmanned-manned system 
concepts. We were very enthusiastic about the ability to shrink 
that amount of bandwidth required in very interesting ways. 
It--the smaller the pipe, the easier it is to protect. We're 
thinking about very novel ideas in that space.
    Senator Fischer. There's a discussion going on in the 
Commerce Committee about spectrum, since you're talking about 
bandwidth. You said you're shrinking bandwidth that's necessary 
for the Department of Defense. Would you say you don't need all 
that you have? Put you on the spot here.
    Mr. Welby. Today, I think we need all we have, and more.
    Senator Fischer. You need it all.
    Mr. Welby. We need it all. Particularly for radar is really 
one of the critical things. Our large-bandwidth sensors are 
really a challenge. Spectrum auction has caused the Department 
to have to shift in very complex ways, and we're continuing to 
work through that. Comma, with my technology hat on, I am very 
excited about agile spectral use in the future and ways we can 
start to think about the technologies that will help shift, not 
just the military sector, but maybe in--on someday, the 
commercial sector to be much more efficient users of spectrum. 
I am enormously excited about the initiatives that DARPA has 
started here in the last 2 weeks to set up prizes associated 
with very novel use of the spectrum, an arena to challenge 
folks to come in with entirely new concepts for agile radio 
development, and to think about new ways that we can architect 
our commercial and military systems to be really efficient 
users locally, regionally, and globally to make the most use of 
the spectrum we have. The demand for spectrum is only going in 
one direction. Wide bandwidth applications on the commercial 
side, wide width applications on the military side are going to 
grow. But, in the fight, which is what we were talking about a 
moment ago, we're going to want to be able to--if we lose that 
spectrum, to still be able to fight through. We think there's 
very interesting ways we can do that.
    If, Arati, you want to say a word about the spectrum 
challenge.
    Dr. Prabhakar. You can tell Steve is a DARPA alum, because 
he summarized our new DARPA program perfectly.
    Senator Fischer. I was going to say, because we have such a 
truly limited amount--a finite amount of spectrum that's out 
there, and to find a more efficient way to use it would be 
beneficial, Of course, for our national security, but also for 
our businesses that are out there, as well.
    Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Madam Chair.
    I apologize for being late. Was at another subcommittee 
hearing, so I may ask questions that you've already covered. 
But, it's good to be with you, and thank you for your service.
    I'm interested in the interface between the DOD 
requirements and commercial requirements in a very--you know, 
complex commercial environments. Generally, the security 
requirements of the DOD exceed the commercial space, or will--
or, in many ways, is the commercial sector market develop the 
industry and some of the security ahead of the DOD mean?
    Dr. Prabhakar. I'll take a stab at that. You know, if you 
peel apart what DOD needs, in terms of information security, 
cyber security in particular, we need everything that the 
commercial sector needs, because we use commercial networks and 
computers and systems for all of our operations, and we have 
cybersecurity needs for our very sophisticated electronics and 
computing that's embedded in every--you know, every missile, 
every aircraft, every ship, et cetera. I--across DOD, I think 
we have the challenge of adopting, as quickly as we can, the 
leading edge of commercial cybertechnologies, and we continue 
to press--you know, the Department continues to press forward 
on that. Conversely, in some areas where we are able to drive 
cybersecurity research because of DOD's embedded computing 
needs, I think there are places where--and, for example, in 
some of the DARPA programs, we have focused on this question 
of, Can you build a cyber retrofit, for example----
    Senator Kaine. Yeah.
    Dr. Prabhakar.--for a system that goes on an unmanned 
aircraft? We've just had some very good research success in 
that area. That's an example of research that I think at this 
point is leading-edge around the world. Eventually, I think it 
will become an important part of a better foundation of 
cybersecurity for DOD systems. But, it's the same technology 
that will also provide a secure way for the Internet of Things 
to grow. The Internet of Things is either going to be awesome, 
if we can figure out security, or it's going to be a nightmare. 
I think--you know, I think that's an example of a technology 
area driven for DOD that we can also actually contribute to the 
broader set of----
    Senator Kaine. Sort of--it's a good segue to the follow up 
question I wanted to ask. If some of the particular 
requirements we have in the DOD space will really be driven by 
our own research, then we obviously need to be robust in 
funding research. But, to the extent that some of it is going 
to be commercial capacity that we purchased, then that says 
something about acquisition and the acquisition workforce. As I 
deal with folks in the, kind of, private sector, they are quite 
concerned about, Is the acquisition workforce up to the job? 
They actually really kind of sympathize with an acquisition 
workforce. They feel like the DOD, and maybe the Federal, 
generally, acquisition workforce got hammered pretty hard by 
furloughs, sequesters, layoffs, and that that may have hurt the 
acquisition workforce expertise pretty significantly. If we're 
talking about really cutting-edge, you know, technology to help 
us with this third offset strategy, and some of it we're going 
to be acquiring, that's going to put a lot on the shoulders of 
the acquisition workforce to make wise decisions. Do we have--
you know, DOD-wide, do we have the workforce we need to make 
the sophisticated acquisition decisions as we purchase these 
technologies?
    Mr. Welby. Senator, across the--enterprise, working for 
Under Secretary Kendall, we review, kind of, our workforce 
metrics continuously. We have a senior steering group that 
meets monthly, and we review it at the senior level quarterly, 
to ensure that we have--that we are--understand what's 
happening to the health of that workforce--hiring, retention, 
departures, the overall shape of the workforce. But, 
increasingly, the thing that concerns me is not numbers, but 
talent. Specific talent in areas like cybersecurity in areas 
like robotics----
    Senator Kaine. Where competition is pretty tough----
    Mr. Welby. Where----
    Senator King.--so other opportunities are out there.
    Mr. Welby. I note that last week Google announced--and I 
believe the number was 20-percent raise across the board for 
everybody at Google who had ``cyber'' in their title. Not that 
they were being recruited, but just as a preemptive retention 
bonus. You know, our folks haven't seen, kind of, a 20-percent 
number, you know, ever, right? I don't think folks fully 
appreciate that, in some of the areas that were focused on--
artificial intelligence, the cutting-edge computer-science work 
in cyber, in synthetic biology, in a number of other areas--we 
are getting great people because they love our mission, they 
love our capability. But, really, they're often giving up, kind 
of, integer multiples on compensation. Certainly over the 
course of their career, it becomes harder and harder, as folks 
try to get families, to think through how they can make that 
work.
    I'm very appreciative for the great people who are working 
for us every day, but I worry about our ability to compete for 
talent in the future. It suggests we may have to think about 
other models for how we can recruit, retain, or engage those 
folks. If the government can't have them internal to our 
organization, how do we engage them outside? How do we ensure 
that we've got the right set of knowledge on our side of the 
table on the acquisition process? How do we have the right set 
of folks in our lab, thinking about the future for us? I think 
we're going to be in competition, not only for national 
security, but in the competition for talent, as our--as the 
commercial opportunities grow, as our Nation's vibrant 
innovation sector on the commercial side competes with the 
Department of Defense for talent. We're now mining the same 
spaces, and we're going to have to be creative as we go 
forward.
    Senator Kaine. Let me ask a question. It kind of goes in a 
different direction on the third offset strategy. It's really 
doctrinal or conceptual. Earlier defense strategies--it's been 
easier for me to conceptualize how we integrate our allies into 
our strategies, you know, dealing with the Truman doctrine of 
the Cold War or even some of what we're doing right now, vis-a-
vis engagements in Iraq and Syria. As we think about a third 
offset strategy that's heavily focused on novel technologies 
that are unique, swarm capacities, et cetera, how do we 
conceive of alliances and sharing of information? Or is the 
sharing of information, by definition, going to jeopardize your 
edge in a way that we can't do it? I mean, and that's a pretty 
broad question, but I've been wondering how we think about 
alliances and partners in connection with a third offset 
strategy.
    Mr. Welby. Just very quickly, for the sake of time. Allies 
and partners are going to be enormously important in almost 
everything we do. As we think about how we go to war, we always 
go with partners. We do not see that changing in the future. 
Much of what we're doing is thinking about how we have the 
right kind of discussions so that they can contribute and help 
shape that future. Today we're also looking at our allies and 
partners as partners, no kidding, in terms of the technology 
development itself, and how we start to begin to engage early 
on in capturing their benefit, as well.
    I want to give Will a second to this--on this.
    Dr. Roper. I'll be very brief. It's very important, in the 
near-term response in the offset, to realize that we have two 
advantages that go back to more of the human side of the 
equation. One, we've been a preferred partner in the world. A 
lot of our allies and partners use the same equipment that we 
currently train with. We train with them on a routine yearly 
basis. It's a huge part of our readiness posture. As we start 
reimagining how we use our systems, there's a great potential 
to bring in allies and partners, and have that cross-pollinate 
so that adversaries aren't just facing a U.S.--a, you know, 
U.S. adversary, but they're facing a whole coalition approach.
    Two is what you mentioned before. There's going to be 
commercial technology that's going to be cut into the mix 
alongside traditional military technology. Because it's 
commercially-based, it would be much more readily available to 
work on with allies and partners if we don't let exquisite 
requirements start pushing up what we try to get out of it, 
from a military capability. Cost is going to be a very 
important metric in the offset. It's not just red cost, it's 
going to be blue cost, as well. What are we spending, what are 
they spending? Then what do we think the refresh rate of that 
technology will be? If we're wise, we will try to find 
capabilities in the commercial world where we're getting good 
bang for the buck, and keep an eye, Is it something we can 
share with allies and partners? If we can, then our coalitions 
that we build up play for us and not against us.
    Senator Tillis. Thank you, Madam Chair.
    Dr. Prabhakar, I just--I was going to comment, if Senator 
Manchin had been here. I think probably the biggest distinction 
that you're dealing with between, say, the service academies 
and some of the other institutions is the nature of their 
research and investments that are being made by the Federal 
Government in the private sector. They create a different group 
of people that I assume you're collaborating with. I think I 
understand why there would be, necessarily, a different focus 
and different relationship with the service academies.
    Dr. Prabhakar. Just a comment on that. If you look at all 
academic institutions broadly, of course there are many that 
focus on teaching and some that focus on research. Our natural 
partners for the research funding that we--especially the basic 
research work that we're doing, tend to be those research 
universities rather than----
    Senator Tillis. Yeah.
    Dr. Prabhakar.--those focused on----
    Senator Tillis. Yeah.
    Dr. Prabhakar.--education, which is more where the 
academies have been. That doesn't preclude--there are, in fact, 
some very good things that we've done there. I just didn't want 
to leave the impression that that was a major focus----
    Senator Tillis. Yeah.
    Dr. Prabhakar.--for us.
    Senator Tillis. Yeah. I under--so, I just--and I think--I 
understood it; I just wanted to make that point.
    Dr. Roper, and really for anyone on the panel, the--and 
it--when the Chair talked about ``We're not really fighting 
tank-to-tank anymore,'' that's completely true. You know, our 
Air Force, our air capabilities will need to continue to 
evolve. I think we can build and iterate on our offensive and 
defensive capabilities. Probably the same is true for the Navy. 
But, for the people on the ground, like the folks I have at 
Fort Bragg and Camp Lejeune, they're being deployed in very 
different ways. I think Dr. Welby talked a little bit about the 
way that we will equip them, the way that they and the 
equipment and materials they're using could be semi-autonomous, 
tethered or loosely tethered, or untethered. I kind of 
understand how that would operate. But, at the end of the day, 
it's because we're going to have a dispersed group of smaller 
units on the field. The question then becomes, the--some of--
many of your innovations are likely not to be these big, shiny 
ships and new missile systems that are going to be deployed on 
the battlefield, but they're going to be things that are very 
much connected to the humans and in the environments that we 
find ourselves fighting now. Could you talk a little bit about 
that, and also talk about the research that you're doing that 
has less to do with offensive and defensive capabilities, but 
just pure-play force protection for the operators on the field?
    Dr. Roper. Sure. Thanks, Senator Tillis.
    It's--there's going to be some, I think, amazing things 
that we'll be able to do with ground forces, given the 
commercial technology revolution that's going around us. 
Interpersonalwise, we're all carrying around fairly 
sophisticated high-processing, low-weight electronics that are 
massively networked and are completely enabled by cloud-based 
services. The military analog of this is obvious. If we can 
smartly find a way to transition this over and be able to do 
secure processing, and not have cyber vulnerabilities be a 
bigger headache than they are, the enabling capability from the 
technology themselves. We are working very closely this year 
with the Army and with SOCOM, some of the folks in your neck of 
the woods at Fort Bragg, on trying to find the balance between 
using commercial technology on the battlefront. I think there's 
a lot of promise there. One example that I'd like to highlight 
is work that we're doing with the Marine Corps on big data and 
analytics. You can imagine that all of these distributed 
systems that are going to be spread out over the battlefield 
are going to be producing data. That data is going to be pooled 
in a disaggregated way, but eventually pooled centrally. 
Understanding it, being able to give commanders that leading 
edge of decision authority is going to be important.
    The Marine Corps right now is doing experiments with us 
currently, today, in the Philippines at the Balikatan Exercise, 
pulling in lots of information that supports that exercise, and 
synthesizing it using commercially-based big-data tools, 
something very new for us, and it's new for them. But, taking 
advantage, as Secretary Welby mentioned, of experimentation and 
prototyping, especially when the core of the systems we're 
using are commercially based, is going to be a very prudent way 
for us to get out and get the human side of the technology 
alongside, you know, the technology side. I see a lot of 
promise, but we're going to have to move into more of a rapid 
test-it, modify-it, retest-it in order to stay on top.
    Mr. Welby. Quickly. We often focus on those flashy pieces. 
We talk about tanks and missiles and aircraft. But, just last 
week, the Secretary announced the new Manufacturing Innovation 
Institute for Revolutionary Fibers and Textiles, a major 
initiative that's--crosses five State initiatives, that 
incorporates work going on around the country, thinking about 
fibers in a fundamentally different way. As an Active component 
in fabrics that might have woven-in electronics, might be able 
to serve, not just as protective gear, but as part of an 
ensemble--an active part of an ensemble to support warfighters, 
a kit, and with enormous applications to first responders and 
to medicare care and to an enormous number--another set of 
capabilities. We're not just thinking about how, you know, 
robots and new weapons kind of enable this future, but also 
thinking about how we make the individual warfighter more 
effective. I think there's a lot happening in that space, be it 
augmented reality kind of capabilities, be it soldier-borne 
compute, be it novel textiles and rethinking what a uniform 
means, thinking about how folks can be more effective, 
distributed for survivability, and then massing for effect, 
even if they don't actually come together, but to be able to 
mass their effects. These are real opportunities to rethink the 
future of land combat. We're encouraging the Army and Marine 
Corps to help us think through that future in new ways.
    Senator Tillis. Thank you.
    Dr. Prabhakar. May I just tag onto these excellent 
comments?
    The nature of ground conflict, of course, continues to 
change. If you look at what's happening today and into the 
future, that environment is one in which we see--if you watch 
the Russians, if you watch what's happening on the ground with 
ISIL, you see this mix of kinetic effects, but, of course, also 
cyber effects. You see the use of the information domain. That 
used to mean dropping pamphlets or saying things on the radio. 
Of course, now it's social media. You see a different kind of 
use of the electromagnetic spectrum and jamming that we've not 
seen before. The integrated ability to bring all of that to 
bear is what our ground troops now will need to be able to deal 
with. A lot of our work is really thinking about how--for 
example, how do you enable a squad to not only survive in that 
environment, but actually exercise greater influence and have a 
larger footprint than it does today by leaping ahead of the 
kinds of things that are coming at us?
    Dr. Roper. One last point, Senator. That goes back to where 
we've--what we've touched on several times. The military that 
will be able to push the most amount of trust to the edge, 
assuming the enabling technology is there, is likely to win. 
It's an area where we have a significant advantage.
    Senator Tillis. Thank you.
    Senator Fischer. Thank you, Senator Tillis.
    Senator Kaine, did you have other questions?
    Senator Kaine. Just one.
    Can you explain that last point you just made?
    Dr. Roper. It's a important point. I think we envision----
    Senator Kaine. Repeat it. It--about the edge. Repeat that 
point.
    Dr. Roper. As we push, you know, where--there's always a 
desire, where you can, to do things in a centralized fashion. I 
want to have all the data flowing to the brain in the center, 
and then the commands will push out to the edge. As we 
discussed today, we're living in a complicated world. We're 
going to face cyber, we're going to face spectrum denial, we're 
going to face information operations, as Dr. Prabhakar 
mentioned. All of that is going to contest various nodes in 
that network. Data is not going to flow the way we want it to. 
The military that is able to have the most trust to interpret 
commanders' intent and the technology to allow them to back it 
up at the edge is going to have a significant advantage in the 
rapidity of their response. If we can move and enable that, we 
have an advantage over militaries who can't.
    Well, when I go around and talk about with our operators, 
which is my great privilege to do so, and I contrast that with 
what I see in the rest of the world, I think we have an 
advantage in the level of trust in our chain of command. If we 
put the technology in the hands of soldiers that have our 
trust, then we're already a step ahead of the game. A lot of 
the technologies that you've heard discussed today are about 
trying to flow that enabling capability out to the edge of 
conflict, to the edge of the battlefront.
    Senator Kaine. Great. Thank you very much.
    Thanks, Madam Chair.
    Senator Cotton. Sorry. I was coming over from an 
Intelligence Committee meeting. But, I know it's been an 
interesting hearing, just based on the written testimony that 
was submitted.
    Secretary Welby, I want to talk about DCGS-A [Distributed 
Common Ground System-Army]. In your testimony, one of the areas 
you highlight are technologies and concepts that enable faster 
and better decisionmaking and coordinated operations at range 
and across the battlespace. Do you think the Department or the 
services should continue to develop major automated information 
systems?
    Mr. Welby. Senator, I believe that major automated 
information systems, there are places where the Department 
needs to be developing military-unique capabilities that don't 
exist anywhere else. I think where the Department is leveraging 
capabilities that are available from the commercial sector, we 
should not be in the business, and should be leveraging 
commercial innovation to the greatest extent possible. We see 
this in areas such as electronic health records, where we've 
shifted our focus to leverage commercial to the greatest 
degree. We see it in some of our log systems, where we had 
those kind of capabilities. I think we're seeing it 
increasingly in intelligence and data-fusion systems, where we 
can leverage commercial to a greater degree.
    Senator Cotton. DCGS-A has been developed since the late 
1990s, and it's been beset by cost overruns and schedule 
delays. Do you think this is one of those areas where we should 
perhaps move to commercial or private-sector solutions?
    Mr. Welby. Senator, I'm not fully fluent in the Army's 
current approach to that. I know they are reconsidering their 
strategy, in terms of that program.
    Senator Cotton. Dr. Roper, do you have a opinion on this 
matter?
    Dr. Roper. On the DCGS-A, as a whole, no, Senator. I will 
say that, for the information tools that we're developing to 
leverage big data and analytics, we're relying heavily upon 
commercial tools, as well as those developed by our government 
DOD laboratories, as well as those developed by DARPA. I think 
developing architectures that enable as much of a rapid refresh 
of commercially-based tools would be wise, given the pace of 
development in the world.
    Senator Cotton. An 80 or 85-percent solution would be 
acceptable today?
    Dr. Roper. It is for our operators, sir.
    Senator Cotton. I think it was Patton, maybe MacArthur, who 
said, in a--something that was quoted in Infantry Field Manual 
7-8, that a good plan today is better than a perfect plan 
tomorrow.
    Dr. Roper. To your point, Senator, the marines who are 
using our tools right now--and I'm getting feedback from them 
each day--we've never had this ability to coordinate on the 
information front, so they're learning, they're writing the 
training manual as we go. If we strive for exquisite solutions 
ahead of the operators' ability to use them to their fullest 
intent, we may have 100-percent solution that's actually 
clocking at 80 percent on the battlefield. We have to balance 
the technology leap as well as the operator leap.
    Senator Cotton. Do you think it make--would make sense to 
develop a program that had 120 different apps?
    Dr. Roper. It's appealing, given how enabling that is for 
us in our personal lives. That's very similar to how the tool I 
referenced works. It's called a--an Information Common 
Operation Picture, or ICOP, and it does work based on an app-
based approach, where no one single piece of software 
developed, in most cases, by small businesses, provides 
operators precisely what they want. On the government side, we 
developed the integrating architecture and a display so that 
you can change out things behind the hood, but it looks the 
same way to operators on their screen. Now, that's for one 
particular application for looking at large amounts of publicly 
available information and making sense of it. How well those 
extrapolate to bigger architectures, including warfighting 
architectures, is a question I'm not able to comment on well.
    Senator Cotton. Would it surprise you that the project 
manager found that, of the 120 apps, commanders and soldiers 
used, on average, 5 of them?
    Dr. Roper. I think it would, Senator.
    Senator Cotton. Why is that?
    Dr. Roper. Well, just seeing how many apps I use in my own 
life, we tend to find--if it's useful, we tend to apply them 
personally. The reason for that is not one that I can comment 
on, but it does surprise me.
    Senator Cotton. I mean, I'm sure, if we put a video game 
and an ESPN app on there, that soldiers would find a way to use 
those. But, if it's just the mission in front of them, I have 
to say I'm not terribly surprised that they're going for the 
simple route, since that's usually the best way to success in 
the Army.
    I'm reminded of a story I heard once about Booker T. 
Washington when he was building his university. It may be 
apocryphal, but it's one of those stories that's too good to 
check, because it has an important lesson. That he built the 
buildings, everything was ready to go, students were ready to 
report, and someone pointed out to him they didn't have 
sidewalks. They said, ``Are you going to build the sidewalks?'' 
He said, ``One day I might.'' About 6 weeks in, he took the 
engineers and the designers out and pointed out where all the 
grass was dead, and said, ``Build the sidewalks there'' rather 
than trying to force the students and the faculty to walk on 
sidewalks where he thought they should be designed and placed. 
I think that that probably could carry a good lesson for when 
we're designing this kind of system.
    Thank you all for your testimony. Thank you for your 
answers to these questions. They're an important matter, and 
I'm sure the committee is going to be taking it up.
    Senator Fischer. Thank you, Senator Cotton.
    I'd like to once again thank the panel. This was a 
fascinating discussion. I thank you for your work. It's 
important work. As I said earlier, we've always given you good 
support with this committee because of the support that you 
give our warfighters.
    Thank you.
    We are adjourned.
    [Whereupon, at 4:02 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Joe Manchin
 darpa research funding at federal degree granting institutions (fdgi)
    1. Senator Manchin. Your agency funds research at universities 
throughout the US. What percentage of DARPA's fiscal year 2015 total 
research budget went to academic institutions?
    Dr. Prabhakar. The total DARPA fiscal year 2015 funding sent to 
academic institutions was 13.4 percent.

    2. Senator Manchin. The FDGIs include the service academies, so 
what portion of DARPA's fiscal year 2015 academic institution research 
funding went to the service academies?
    Dr. Prabhakar. The total DARPA fiscal year 2015 funding sent to the 
Service academies was $2.0 million.

    3. Senator Manchin. What portion of DARPA's fiscal year 2015 
academic institution research funding went to other FDGIs (e.g., Naval 
Postgraduate School, Air Force Institute of Technology, etc.)?
    Dr. Prabhakar. In fiscal year 2015, total DARPA funding sent to the 
Naval Postgraduate School was $1.6 million and to the Air Force 
Institute of Technology was $50.0 thousand.

    4. Senator Manchin. I understand that research typically conducted 
at service academies and other FDGIs may not fully align with DARPA's 
preference for pivotal research investments in breakthrough 
technologies for national security. However, technology transition is 
critical for DARPA research success. The FDGIs have robust networks 
with their respective services for enabling technology transition and 
integrating faculty, cadets, and midshipmen into user evaluations. Do 
you assess that DARPA can feasibly pair its research performers with an 
FDGI to help enable technology transition?
    Dr. Prabhakar. DARPA's unique role in DOD is to drive early 
investments to achieve breakthrough technologies for national security. 
As a result, the majority of DARPA programs do not transition straight 
into Service programs of record but are handed off to Service and 
industry partners for further research and development and prototyping.
    In some cases, we do work with the Services and other FDGIs to 
demonstrate the operational utility of emerging technologies, and we 
have found that working directly with the eventual end-user communities 
is most effective. FDGI faculty and students are generally not current 
and future end-users. Working through the FDGIs for end-user 
evaluations would add another layer of complexity and effort between 
DARPA and our warfighting customers.
    The Service Academies and FDGIs have typically not been key 
contributors to DARPA technology transition. There are a number of 
other Service entities and numerous other avenues that have proven to 
be far more effective in transitioning DARPA technology into warfighter 
capabilities. For example, the Service Academies have proven to be 
valuable on the early end of technology efforts to help shape emerging 
programs and provide a source of fresh ideas and perspectives on 
innovation. The DARPA technical offices have sponsored a variety of 
interactions and ongoing activities with the faculty and students of 
the Service Academies as well as the military post-graduate educational 
institutions, such as Naval PG School and AFIT to include them in user 
evaluations, solicit feedback and percolate new ideas.

    5. Senator Manchin. Mid-career servicemembers selected for service 
academy instructor duty often enroll in civilian graduate schools that 
receive DARPA research funding. Do you assess that your agency could 
incentivize these schools to integrate servicemember graduate students 
into their DARPA research as a way to help enable technology 
transition?
    Dr. Prabhakar. The services are responsible for determining 
research priorities for service academy instructors while studying in 
civilian graduate schools. They may consider several criteria including 
the technical needs of their future teaching duties as well as 
alignment with service priorities and funded research. In turn, DARPA 
does not attempt to influence the service-sponsored students' research 
topics or incentivize civilian graduate schools to integrate these 
students in our research. We have found the approach that aligns best 
with our mission is to fund institutions competitively and without 
incentives, based on the their ability to meet the technical objectives 
of the proposed research using the best possible cadre of graduate 
students and faculty suited to the task. We also aggressively pursue 
technology transition working directly with the services to coordinate 
operationally focused evaluations by end user communities. In our best 
judgment, any effort to identify and incentivize individuals and 
institutions during our technical source selection could have adverse 
effects on choosing the best performers and would have very little 
impact on eventual transition.
    DARPA does have several on-going programs to help connect mid-
career officers with DARPA programs. These are designed to enhance 
their professional education and understanding of DARPA and the R&D 
enterprise at-large, as well as assist with technology transition. The 
DARPA Service Chief Fellows (SCF) Program provides for10-12 mid-career 
officers quarterly to attend a DARPA sponsored and funded 90-day 
fellowship at DARPA. While assigned to DARPA the SCF officers are 
exposed to the breadth of DARPA technology, experience some of its 
performer base first hand and help to provide insights to shape on-
going programs and assist in transition. The insights and experience of 
the SCFs is of significant value to DARPA PMs on the potential military 
utility of various technological pursuits. The agency also has an 
established USAF Fellowship where it sponsors two mid-career officers 
for a longer term 10-12 month Fellowship to allow more prolonged 
exposure to DARPA and the R&D process as well as allow a more in depth 
interaction and integration for the Fellows with the DARPA Staff. DARPA 
is in the process of finalizing a similar long term Fellowship program 
with the U.S. Army.
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
                    technology transfer authorities
    6. Senator Gillibrand. In several of the last Defense 
Authorizations, Congress has given the Department extended technology 
transfer authorities, including enhanced tech transfer capabilities to 
DOD Labs and expanding the partnerships that labs can develop for tech 
transfer. Can you tell us whether these authorities are being used? If 
so, how? If not, why not?
    Secretary Welby. The various technology transfer authorities given 
to the Department of Defense by Congress are being used. Examples of 
their utilization are included below.
    Section 213 of the National Defense Authorization Act (NDAA) for 
Fiscal Year (FY) 2016, Public Law 114-92, expands the scope of 
Educational Partnership Agreements (EPAs) to support technology 
transfer and transition. EPAs provide Defense laboratories the means to 
assist universities in extending their research capabilities in areas 
relevant to Defense needs and provide an opportunity for students to 
work on degrees in programs of interest to the Defense laboratory 
enterprise. Benefits to the Department are two-fold. One, the 
university develops scientific and engineering expertise applicable to 
future Defense needs. Secondly, students working on Defense-sponsored 
research receive early exposure to Defense labs thereby expanding the 
possible talent pool for future recruitment. One promising mechanism in 
which the Defense Department currently utilizes EPAs as a tool is the 
Open Campus Initiative. The Army Research Laboratory's (ARL) Open 
Campus business model envisions the creation of a dynamic, cooperative 
science and technology ecosystem that links government assets with the 
global research community. Open Campus partners work side-by-side with 
ARL research scientists and engineers, share ARL's specialized research 
facilities, bring ARL researchers to their institutions to communicate 
a perspective on research conducted in federal laboratories, and become 
part of the broader DOD network. ARL currently has an Open Campus 
presence at the Adelphi Laboratory Center, Aberdeen Proving Grounds, 
and the University of Southern California's (USC) Institute for 
Creative Technologies. The USC facility officially opened on April 13, 
2016.
    Section 252 of the NDAA for fiscal year 2013, Public Law 112-239, 
allows the Department to utilize the DOD R&E network to support 
regional advanced technology clusters to encourage the development of 
innovative advanced technologies and the commercialization of the same. 
As a result of this authority, the DOD established an on-going 
initiative with Arizona State and three DOD laboratories--the Air Force 
Research Laboratory Information Directorate in Rome, NY; the Space and 
Naval Warfare Systems Command in San Diego, CA; and the Army Natick 
Soldier Systems Center in Natick, MA. This pilot program pairs 
technology transfer professionals from Arizona State University and DOD 
Laboratories, and introduces venture capitalist and business 
accelerators to DOD technologies with commercial or private sector 
applicability. Local businesses, university students, and mentors from 
larger businesses (such as Honeywell, General Dynamics, and Boeing) 
collaborate in introducing viable DOD technologies to the commercial 
sector.

    7. Senator Gillibrand. What are the barriers to technology transfer 
from DOD Labs, DARPA as well as from defense contractors and what can 
we do to help remove these barriers?
    Secretary Welby, Dr. Prabhakar, and Dr. Roper. Much has been 
written in Academia, DOD and by the GAO regarding the traditional 
challenges and barriers to successful technology transition, including 
the specific challenges associated with DARPA's unique role in DOD to 
provide early investments to achieve breakthrough technologies for 
national security. As a result of DARPA's focus on early-stage 
research, the majority of DARPA programs do not transition straight 
into Service programs of record but are handed off to Service and 
industry partners for further development. However, given the unique 
nature of the advanced research conducted by DARPA, there are a variety 
of alternative ways in which DARPA technology transitions into future 
warfighting capabilities.
    DARPA has a number of processes and resources available to Program 
Managers (PMs) to help navigate transition barriers. That starts with 
engagement with the Services and combatant commanders early in a 
program to help understand operational needs, elicit potential handoff 
partners, and build advocacy among operational users and resource 
sponsors. In recent years, DARPA has increased the resources available 
to support engagement and transition. IT established the Adaptive 
Execution Office (AEO) as a mission support element solely focused to 
help PMs by facilitating technical demonstrations, supporting 
incremental advances in technical maturation where appropriate and 
enhancing the handoff of DARPA technology to operational users and the 
Services. AEO works very closely with DARPA's four Active Duty 
operational liaisons to help PMs navigate the various barriers to 
transition and maintain connection with the Services and the COCOMs 
throughout the lifecycle of DARPA programs.

                                 <all>
</pre></body></html>
